                                United States Department of State
                              and the Broadcasting Board of Governors
                                  Office of Inspector General
Office of Inspector General
                              Semiannual Report
                               to the Congress
                              October 1, 2001, to March 31, 2002
   A MESSAGE FROM THE INSPECTOR GENERAL


                               I am pleased to provide the Congress with this my
                               second semiannual report. I believe that we have made
                               progress in redirecting as much of our limited resources
                               as possible from support functions to core functions
                                    (inspections, audits, and investigations). The
                                       percentage of our budget devoted to the former
                                        has decreased during this period from 29
                                         percent to 22 percent, and the percentage
                                          devoted to the latter has increased from 71
                                          percent to 78 percent. Furthermore, we are
                                          working hard to produce more products, of
                                          higher quality, in a shorter time period.

    Despite our limited resources, we have recommitted the Office of Inspector
General (OIG) to inspecting the management and effectiveness of every embassy,
consulate, and domestic bureau and office on a five-year cycle. We are refocusing
security oversight inspections from a “checklist approach” to a mission’s compliance
with applicable rules and regulations to an evaluation of the quality and effectiveness
of security programs in light of the applicable security threats. We are auditing
expenditures and programs with a view to promoting effectiveness, efficiency, and
economy. We are trying to complete criminal investigations as quickly as possible,
with due regard for the rights of the accused. Our goal is to complete all projects
within six months, barring exceptional circumstances.

    We are working to reduce our backlog of outstanding recommendations. We
are reviewing each recommendation with a critical eye, closing those that we no
longer believe to be significant, practical, or relevant. We will insist on the prompt
implementation of the remainder, invoking the rarely used impasse procedure, if
necessary.

    We are working to make good on our commitment better to serve the needs of
the Broadcasting Board of Governors (BBG). The new International Broadcasting
Oversight Office is hard at work conducting inspections, doing audits, evaluating
programs, and otherwise serving the needs of the various entities that comprise the
BBG.


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   1 .
          I have personally worked hard to develop still more and even better relationships
      with members of Congress and their staffs through meetings, briefings, telephone
      conferences, correspondence, and written reports. I welcome further opportunities
      to work with Congress and to fulfill my obligation to keep you fully and currently
      advised of OIG activities.




2 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                          EXECUTIVE SUMMARY


D        uring this reporting period work of the OIG for the U.S. Department of
         State (Department) and the Broadcasting Board of Governors (BBG)
focused on its four strategic goals.




I . The Department and the BBG adequately
protect the people, information, and facilities under
their control in the United States and abroad.

During this reporting period OIG undertook to support all management inspec-
tions with participation by at least one security inspector, who develop a “limited
scope inspection report” that examined specific security issues at post. OIG is
providing its full security inspections of embassies selected on the basis of threats
to them and their security vulnerabilities. Oversight of the chiefs’ of mission coordi-
nation of intelligence activities in their respective countries remains a high priority.
Finally, in this cycle OIG reviewed procedures designed to enhance the security of
Department operations, particularly those abroad and, depending on resource
availability, plans to expand the information security component to inspections.

    OIG completed a major review of domestic security programs, which, among
other issues, examined compliance with earlier recommendations concerning the
handling of classified information at the Department’s Main State facility in Wash-
ington, D.C. OIG concluded that the Department has made significant strides in
enhancing the protection afforded to classified information, especially Sensitive
Compartmented Information (SCI). In March 200l, pursuant to a recommendation
of the OIG, the Department signed a Memorandum of Agreement transferring the
responsibility for handling the SCI program from the Bureau of Intelligence (INR)
to the Bureau of Diplomatic Security (DS). The Department also reduced the
number of offices where SCI is processed, read and discussed, and enhanced
physical security for those offices. Since OIG’s first report, the Department
strengthened procedures for reporting security incidents.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   3 .
          OIG has also completed an audit of the Armored Vehicle Program, and con-
      ducted security oversight inspections at Embassies Paramaribo, Suriname, Beijing,
      Bangkok, Vientiane, Georgetown, and Consulate General Hong Kong during this
      reporting period. In addition, compliance follow-up reviews were completed for
      Embassy Panama City, Panama, Embassy Brussels, Belgium, for U.S. Mission to the
      European Union and for the U.S. Mission to the North Atlantic Treaty Organiza-
      tion, also in Brussels.

          In response to a congressional request, OIG reviewed the contracting process
      and performance of the Department’s overseas explosive detection program. OIG
      also reviewed DS management controls for operating, maintaining, and accounting
      for explosive detection equipment. OIG found that the procurement of explosive
      detection equipment was in accordance with federal regulations, that explosive
      detection equipment operated without false positive readings and without significant
      downtime, and that management controls over the operation and maintenance of
      equipment were adequate. OIG identified areas for improvement in the program as
      well as for maintenance and management of the equipment.

          OIG also completed a review of the Department’s OpenNet Plus program.
      OIG found that the Department is taking a structured approach to implementing
      Internet capability, and has a process for ensuring that bureaus and overseas mis-
      sions meet established requirements before they are granted connectivity. However,
      the Department has not instituted all of the policies necessary to support OpenNet
      Plus implementation, particularly with regard to eliminating redundant Internet
      connections and monitoring employee use of the Internet.

           OIG reviewed the Classified Connectivity Program (CCP), which is an ongoing
      effort within the Department to deploy a classified information processing and
      communications network to over 250 embassies and consulates around the world.
      The CCP is providing a commercial-style network and modern hardware and soft-
      ware for desktop classified processing. OIG found that the Department’s initial
      approach to C-LAN modernization was largely unstructured and, due to funding
      constraints, only about 20 installations were completed in 1998-99. The original
      objective was for 48 deployments per year over a five year period. However, the
      Department currently has a disciplined CCP approach in place under the direction
      of the Program Management and Analysis Division in the Bureau of Information
      Resource Management (IRM) and is making progress. The division has completed
      an additional 55 deployments for a total of 75 classified local area network modern-
      izations as of September 200l, and is currently preparing a financial plan that will
      allocate FY 2002 funds in accordance with congressional direction.




4 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    In its review of the classified network, however, OIG found that DS had not
completed the steps necessary for CCP certification. This independent, technical
review by DS must identify vulnerabilities to ensure that the system meets federal
information security requirements. DS provided a strategy orally, but there was no
documented plan for carrying out the systems certification. Moreover, DS planned to
delay certifying the CCP concept until late 2002, and did not anticipate conducting
subsequent certification of missions’ technical and physical environments until 2003.
Meanwhile, IRM officials estimate that as many as 85 to 90 percent of missions did
not have information technology contingency plans in place, despite the fact that
there are multiple toolkits available. OIG recommended that IRM coordinate and
consolidate its contingency planning program with related activities in other Depart-
ment offices. This would not only help promote consistent information contingency
planning for the CCP, but also support the Department’s overall information technol-
ogy infrastructure. IRM agreed with OIG’s recommendations, and is working with DS
to coordinate information contingency plans with emergency action plans.

     OIG assessed the vulnerability of information technology for the central finan-
cial management system as part of its audit of the principal financial statements.
Financial statement audits require an assessment of the adequacy of the internal
control process for recording, accumulating, and reporting financial data. This, in
turn, requires an assessment of the security over the automated systems that process
financial data. At OIG’s direction, independent external computer specialists per-
formed a vulnerability assessment of the Central Financial Management System.
OIG found that the specific security features associated with this system appeared
to function correctly and were well managed. Most of the vulnerabilities detected
pertained to system configuration issues that could be corrected without affecting
overall network performance and were similar to problems noted during another
vulnerability assessment, which suggests that similar problems may exist throughout
the Department’s information technology structure.




II. The Department and BBG effectively,
efficiently, and economically advance the
foreign policy interests of the United States.

During this reporting period, the OIG inspected five African embassies, seven
European missions, seven Western Hemisphere embassies, and five East Asia and
Pacific embassies.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   5 .
        At the overseas missions OIG has inspected since September 11, several com-
      mon themes emerged:

           Embassy Security: Completion of the Department’s plans for constructing secure
      facilities is critical. At most missions, the security situation could easily become
      untenable and, in some cases, OIG recommended moves to temporary locations.
      Many chanceries are seriously vulnerable. OIG recommended a re-examination by
      the Department of staffing numbers in light of the security situation and limited
      U.S. interests for some embassies.

          War on Terrorism: OIG found that the embassies inspected were energetic and
      creative in supporting the U.S. war on terrorism. Embassies took serious and appro-
      priate precautions with respect to their own security and carried out their “visa
      viper” obligations in most cases with vigor. Many embassies developed creative
      public diplomacy strategies to promote post-September 11 policies. However, a
      number of embassies need to revise their Mission Performance Plan to reflect new
      policies and programs.

           Personnel: In general, the professionalism and dedication of Department American
      and Foreign Service national (FSN) staff serving in embassies is impressive. However,
      hardship embassies and consulates are not getting the personnel resources they need.
      Too often staffing gaps are allowed to occur and even continue indefinitely. Moreover,
      many of the staff in hardship embassies are first tour officers and lack much needed
      experience to deal with the problems and issues confronting them in these remote,
      difficult environments. Frequently, supervision of these officers is not sufficient, in
      part, because embassy leadership is overburdened trying to make up for staffing gaps.
      In several instances, OIG encouraged bureau leadership to develop “swat teams” of
      experienced officers who could be assigned to a mission temporarily to train FSN
      staff and correct problems so that operations could be brought to some normalcy
      before being turned over to staff assigned on a permanent basis.

         Public Diplomacy Staffing: This was a problem in most of the hardship embassies.
      There were insufficient public diplomacy resources, including personnel in the Baltic
      embassies and in most of African embassies.

           Embassy construction: The Office of Overseas Buildings Operations (OBO) has
      made considerable progress in developing more effective ways of implementing the
      foreign building program. However, significant additional resources are needed if
      construction for all embassies requiring renovation or relocation because of security
      vulnerabilities is to be undertaken. OIG found OBO consistently responsive when
      it discovered deficiencies and problems during the course of its inspections.




6 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    OIG completed a review of the munitions export licensing process at the De-
partment pursuant to a provision of the National Defense Authorization Act for FY
2000, Public Law 106-65, Title XIV, Section 1402, which requires an annual report.
In addition, OIG participated in an interagency review conducted in cooperation
with the Offices of Inspectors General for the Departments of Commerce, Defense,
and Energy to review the interoperability of information systems and the inter-
agency review process for issuing munitions and dual-use export licenses.

    OIG’s report, “Streamlined Processes and Better Automation can Improve
Munitions License Reviews,” found that the program managed by the Department’s
Office of Defense Trade Controls (DTC) is inefficient and unnecessarily burden-
some on industry and other federal agencies involved in munitions license controls.
OIG found that the process involves extensive use of manual and paper-based
means to transfer information that must be re-keyed into computer systems by
recipient organizations. In addition, the process lacks adequate tracking mechanisms
from beginning to end, resulting in lost and misplaced applications, as well as addi-
tional time and effort. In part, these problems have resulted from DTC’s informa-
tion technology infrastructure, which is comprised of multiple systems that are
independent of one another. DTC recognizes the need to improve its munitions
licensing processes and related information systems and is now developing plans to
upgrade its information technology capabilities. DTC’s efforts need to include
effective risk management strategies and adequate industry and agency input to
identify and meet program requirements. Absent a revised business process, an
investment in new technology will merely automate an inefficient way of doing
business.

    In compliance with the third-year requirement of the National Defense Act
mandate for an interagency OIG review, as noted above, the OIGs for State,
Commerce, Defense and Energy conducted a review of the federal automation
programs that support the export licensing and review process. Specifically, the
OIGs reviewed processes and planned improvement initiatives for the dual-use
and munitions export licensing environments. In addition, the OIGs assessed the
interagency efforts of the U.S. Export Systems Interagency Program Management
Office, which is a Defense Department effort designed to help modernize the
overall export licensing process. This review found that the dual-use export
licensing process involves multiple automated systems many of which are no
longer effective for the present era of export license processing. Significant
problems include differing security standards among agencies and cumbersome
manual and paper-based processes. Moreover, there is no comprehensive database
of export information available to assist in assessing the cumulative effects of




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   7 .
      multiple exports. These agencies need to coordinate efforts to modernize and to
      consider alternatives to the existing interagency process. The OIGs’ interagency
      review also found that the program is not providing all participating agencies with
      electronic access to export data.

          The interagency OIG report recommended that the Secretary of State develop a
      memorandum of understanding with the Secretaries of Defense, Energy, and the
      Treasury that will ensure that federal automated munitions export licensing systems
      are developed, integrated, and modernized without unnecessary duplication. The
      OIGs also recommended that the Secretary of Commerce, in conjunction with the
      Secretaries of Defense, Energy, State and the Treasury, take the necessary steps to
      establish accountability for developing, integrating, and modernizing federal auto-
      mated dual-use export licensing systems without unnecessary duplication.

          OIG’s report on the “Department of State Humanitarian Response Efforts for
      Women Refugees and Conflict Victims” found progress in providing women with
      assistance in public health, national capacity building, and food and nutrition. How-
      ever, reduced international donor support for food in Africa hampers refugee
      response efforts. Continued attention is needed to integrate women’s issues into
      international and nongovernmental programming and to develop international
      standards for addressing psychological social distress or health. The Bureau of
      Population, Refugees, and Migration (PRM) is at the forefront of promoting the
      integration of women’s humanitarian needs into all aspects of programming. Perfor-
      mance monitoring and evaluation are done at the project or country level, but there
      is no systematic approach to evaluating overall progress in meeting program objec-
      tives. OIG recommended that an automated database to retrieve and analyze project
      proposals, projects, and progress be on line by this year. OIG also found that PRM-
      funded international organizations are generally less accountable for performance
      than nongovernmental organizations.

          In response to a congressional request, OIG reviewed the Department’s pro-
      gram that supports the International Police Task Force (IPTF) in Bosnia. This
      review included an evaluation of allegations that appeared in the media of miscon-
      duct by U.S. police officers serving with the United Nations (UN) in Bosnia. The
      Department awarded a contract in February 1996, to DynCorp Aerospace Technol-
      ogy, Ltd. (Dyncorp) to provide police officers in support of the IPTF mission. The
      main task of the IPTF was to bring the local police force in Bosnia up to European
      standards. IPTF has no executive authority, its members do not carry weapons, and
      they have no arrest powers. OIG found that enhancements in the screening and
      training processes have improved the quality officers serving in Bosnia. Since 1998,




8 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
only about two percent of the over 900 officers who have served in Bosnia had to be
dismissed; this percentage reflects the number of officers formally terminated for a
variety of causes, including misconduct, AWOL, and insubordination. OIG found,
however, that an additional 2.7 percent of officers had resigned while under review
for similar conduct. No formal action had been taken to terminate these officers for
cause. While overall contract administration was adequate, contract modifications
were approved without adequate consideration for contract competition. The initial
contract was for $4.5 million and now totals over $270 million due to the addition of
other police operations in other countries for recruitment. OIG recommended steps
to strengthen contract administration and that the Department issue a new competi-
tive procurement in 2002.

    In a “Survey of Civil Service Leadership Training” OIG found that the Depart-
ment has made progress in emphasizing the importance of this training for civil
service personnel. The Department’s Office of Civil Service Personnel and the
School of Leadership and Management have developed a leadership “competencies
development initiative.” Despite efforts to publicize the program however, 55
percent of the employees interviewed were not aware of its availability.

     In response to a Congressional request, the OIG reviewed the BBG’s broadcast
activities in the Middle East and the plans for a new initiative to transmit to the
Middle East by radio, the Middle East Radio Network (MERN). MERN is designed
to provide an alternative to the local media and is intended to be a credible source
of news and information about both the countries in the region and the United
States. OIG found that MERN is an innovative and timely initiative that can advance
U.S. foreign policy interests in the Middle East. The structure and format of MERN
will be different from previous Voice of America (VOA) programming and repre-
sents a new model for international broadcasting that is a hybrid of traditional VOA
programming about America and local broadcast streams. MERN, however, is only
partially operational at this time and should be considered a pilot project that can
and will evolve over time.

    In its report on MERN, OIG made three recommendations. First, the Depart-
ment should develop and implement a plan to develop the internal language profi-
ciency necessary to articulate American policies and viewpoints in Middle Eastern
media outlets. Second, the BBG should design and implement a program, in coordi-
nation with the Department, to place public diplomacy advisors with MERN. Third,
BBG should design and implement a plan to introduce as much news programming
in Middle East Radio Network Broadcasts as it can as quickly as possible. Due to the
limited time available to conduct this survey, the OIG will conduct a more thorough




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   9 .
       follow-up review once MERN has been operational for a year.

           OIG reviewed the BBG’s broadcast affiliates program, which includes over 1,900
       active affiliates. “Affiliates” are stations to which the BBG transmits programs for
       rebroadcasting to local audiences. Affiliates broadcast in real time or rebroadcast via
       television, FM and AM radio or live streaming on the Internet. The primary goal of
       the affiliates program is “to promote the free flow of information around the
       world.” The objectives of OIG’s review were to determine whether the affiliates
       program is adequately planned and effectively implemented and whether monitoring
       and controls are in place and effective. OIG found that the Office of Affiliate
       Relations was relying on miscellaneous BBG planning documents and other engi-
       neering studies for guidance, which provide only a general framework. As BBG
       places more emphasis on the quality of the affiliates program, the affiliates office
       needs to develop a comprehensive strategic plan. While the affiliates program has
       succeeded in expanding audiences, it is hampered in its mission by a lack of re-
       sources. A Memorandum of Understanding now in place between the BBG and the
       Department provides a greater opportunity for public affairs sections at embassies
       to work in support of BBG affiliates overseas. Finally, OIG found that the affiliates
       office needs to improve its monitoring of affiliate broadcasts and administrative
       controls over affiliates equipment and agreements.




       III. The Department and BBG have the necessary
       financial and support systems and controls to
       meet legal and operational requirements.

       OIG reviewed the Department’s passport agencies to assess the adequacy of the
       internal controls over cashiering operations and with respect to blank passports.
       OIG concluded that the Bureau of Consular Affairs (CA) has established a compre-
       hensive set of procedures, which, if implemented, would minimize the risk of
       malfeasance in these transactions. However, the internal control procedures were
       not implemented consistently at five of the six passport agencies visited. OIG found
       that CA needs to conduct management assessment reviews more frequently, and the
       unannounced adjudication audit program is not achieving its primary objective of
       preventing and detecting malfeasance.

          In the second of two OIG reviews of the Department’s accounts receivables,
       which are debts owed to the Department by the public and by other governmental




10 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
agencies, OIG found that of the over $128 million owed at the end of fiscal year
1999, $93.8 million represented intergovernmental receivables. OIG determined that
the Department did not properly account for debt owed the Department by other
agencies. As a result, accounts were significantly overstated. In addition, there were
insufficient controls over reimbursable agreements, collection processes, payment
processing and recording, and the accounts receivable computer system. Further,
the Domestic Accounts Receivable Tracking System did not produce a reliable aging
schedule.

    An audit of the Department’s 2001 and 2000 Principal Financial Statements
required by the Government Management Reform Act (GMRA) of 1994 (Public
Law 103-356), found that, although an unqualified opinion was issued, there were
concerns about the security of an unclassified network and the Overseas Account-
ing and Disbursing System. The independent external auditor working under OIG’s
direction also found inadequate internal controls over management of undelivered
orders, and an inadequate financial and accounting system in the Department due
both to internal control weaknesses and noncompliance with several laws and
regulations.

    During an audit of the FSN payroll, OIG found that, overall, the payroll system
compensated FSNs in a reasonably accurate manner. However, OIG did identify
concerns with the FSN payroll process, and with the performance standards. For
example, OIG found that the three systems used to process FSN payroll were not
integrated. OIG also found that the FSN payroll was antiquated and did not meet
user needs. The Department had developed a standardized personnel system, but
use of this system was not mandatory.

    Other financial audits performed by OIG were the following:
 • OIG audited the International Boundary and Water Commission’s Financial
   Statements and reported assets of $375 million. OIG issued an unqualified
   opinion of IBWC for FY 2000.
 • OIG audited the International Cooperative Administrative Support Services
   financial Statements for 1999 and 2000, and issued an unqualified opinion. The
   independent contractor working under OIG direction, however, brought to
   management’s attention concerns about the security of the unclassified net-
   work and the Overseas Accounting and Disbursing System and the inadequacy
   of the Department’s financial and accounting system.

    Summaries of additional audit work are included in the body of this report.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   11 .
       IV. The Department and BBG are free of
       fraud, waste, abuse, and mismanagement.

       OIG investigates and audits allegations of criminal, civil and administrative miscon-
       duct. Investigations completed during this reporting period included embezzlement,
       contract fraud, visa fraud and conflict of interest cases.

            OIG investigated financial irregularities at the Miami Passport Agency in the
       summer of 2000 based upon information provided by CA. On January 18, 2002,
       both defendants, who were cashiers at the passport office, pleaded guilty to charges
       of embezzling over $850,000. As part of the statement submitted to the U.S. Dis-
       trict court, the defendants admitted that they had used the stolen passport fees to
       purchase vehicles, take vacations, and pay other personal expenses.

           OIG conducted a review of invoices submitted for services provided by two
       contractors and found that payments were made for invoices that were not allow-
       able or appropriate to the contracts. As a result, OIG questioned $113,604 of the
       $392,480 that the Department’s Bureau of Human Resources and Bureau of Re-
       sources Management paid to the contractors.

           In July 2001, subsequent to an OIG investigation, a federal grand jury in Bir-
       mingham, Alabama, indicted a large U.S. construction company, the company’s
       foreign affiliate and the company’s former president for conspiring to rig bids and
       defraud the U.S. government of more than $250 million on projects funded by the
       U.S. Agency for International Development (USAID) in Egypt between 1988 and
       1996. On February 4, 2002, the foreign affiliate of the American construction
       company, pleaded guilty to the bid-rigging charge and agreed to pay $54 million to
       the U.S. government for its role in the scheme. On February 12, 2002, a trial found
       the former president of the American company guilty of both charges. Sentencing
       of this company official is still pending.

            OIG received information from the U.S. Border Patrol (USBP) indicating that
       laser visas were being issued to Mexican nationals who would not have legitimately
       qualified for such visas, such as criminal aliens, or aliens who had previously been
       deported from the United States. USBP reported that it had seized five such visas
       that had been issued by a particular consulate near the U.S. borders. An OIG investi-
       gator traveled to the consulate in January 2002, and, working with a Regional Secu-
       rity Officer and a USBP agent, found that two FSNs employed at the consulate had




12 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
conspired to issue laser visas to ineligible Mexican nationals. The two employees
estimated that they had issued approximately 60 such visas in one year for about
$1,000 per visa. In total, four Mexican nationals were terminated from employment.

     An OIG investigation determined that a senior Department official failed to
submit calendar year 2000 Public Financial Disclosure Report after having been sent
several written notices. As a result of the investigation, the official paid the $200 late
filing penalty and the Bureau of Human Resources (HR) proposed a three-day
suspension. In another investigation, OIG determined that a senior Department
official failed to disclose an unpaid membership on the Board of Advisors of a
Department contractor, creating the appearance of a conflict of interest. HR issued
a letter of reprimand to the senior official for failure to seek ethics advice and giving
preferential treatment.

    In follow-up action on an investigation of a Northern Virginia based company
in a large-scale scheme to use fraudulently the DB-5 investor visa program, whereby
U.S. immigration visas may be issued to foreign nationals who invest at least
$500,000 in a business that creates jobs in high-unemployment areas of the United
States, one of the defendants was sentenced to 124 months’ imprisonment, and the
other was sentenced to 112 months’ imprisonment. On January 11, 2002, both
defendants were ordered to serve three years of supervised release upon completion
of their prison terms and to make restitution of $17.6 million to the victims of the
scheme.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   13 .
14 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
  CONGRESSIONAL ACTIVITIES AND OUTREACH


Reports Requested by Congress
 • In response to a request from the Chairman of the House Subcommittee on
   National Security, Veterans’ Affairs, and International Relations, the Inspector
   General issued a report on the managerial and contracting practices of
   DynCorp with respect to its contract with the Department to recruit, train
   and oversee an American police presence in Bosnia.
 • In response to a request from the Ranking Member of the Senate Foreign
   Relations Committee, the Inspector General issued a report regarding the
   Broadcasting Board of Governors’ activities and initiatives directed to the
   Middle East. The Inspector General also briefed staff of the Senate Foreign
   Relations Committee and the House International Relations Committee
   regarding this report.
 • In response to an inquiry by the Chairman of the Subcommittee on Govern-
   ment Efficiency, Financial Management and Intergovernmental Relations, the
   Inspector General responded to questions regarding the Department’s finan-
   cial management systems.
 • In response to an inquiry from the House Subcommittee on Commerce,
   Justice, State, the Judiciary, and Related Agencies, the Inspector General
   discussed the Department’s practices for handling the unclassified diplomatic
   pouch. The OIG will review pouch operations in future embassy inspections
   and will conduct a fourth quarter review of unresolved problems in pouch
   operations.
 • As mandated by the National Defense Authorization Act for FY 2000, Public
   Law 106-65, Title XIV, Section 1402, the Inspector General issued a review of
   the Department’s munitions export-licensing process.
 • Also as mandated by the National Defense Authorization Act for FY 2000,
   Public Law 106-65, Title XIV, Section 1402, the Inspector General participated
   in an interagency review and contributed to a report regarding the adequacy
   of federal policies and procedures for preventing the export of sensitive
   technologies and technical information to countries of concern. This review




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   15 .
           was conducted in conjunction with work done by the Inspectors General of
           the Departments of Commerce, Defense, and Energy and in consultation
           with the Central Intelligence Agency and the Federal Bureau of Investigation.



       Proposed Legislation Reviewed by OIG
       The OIG reviewed for comment the following proposed legislation:
        • HR 1646 and S 1401 - The Foreign Relations Authorization Act, Fiscal Years
          2002 and 2003, which authorizes the appropriations for the Department to
          carry out its authorities, functions, duties and responsibilities in the conduct of
          the foreign affairs of the United States and for other purposes authorized by
          law, including public diplomacy activities and the diplomatic security program.
        • HR 2500 and S 1215 (became Public Law 107-77) – The Departments’ of
          Commerce, Justice, State and the Judiciary and Related Agencies Appropria-
          tions Act, 2002, which appropriated funds for these agencies through Septem-
          ber 2003.
        • HR 2506 (became Public Law 107-115) - The Foreign Operations Appropria-
          tions Act 2002, which appropriated funds for the export and investment
          assistance, foreign assistance, foreign military assistance programs, multilateral
          economic assistance, and international development and counternarcotics
          activities.
        • HR 2975 and S 1510 (incorporated into H.R. 3162, which became Public Law
          107-56) – The USA Patriot Act of 2001, which deters and punishes terrorist
          acts in the United States and around the world by enhancing law enforcement
          authorities.
        • HR 3969 – Freedom Promotion Act, which reshapes critical elements of the
          Department, including new authority for the Under Secretary of State for
          Public Diplomacy, new requirements for the development of a comprehensive
          strategy for public diplomacy overseas, and a reorganization of international
          broadcasting services.
        • HR 3525 and S 1749 (and provisions regarding border security that were
          included in S 1627, S 1618, HR 3129, HR 3221, HR 3229, HR 3205, S 1615,
          HR 3286, and HR 3181) – Enhanced Border Security and Visa Entry Reform
          Act, which tightens border security and increases monitoring of foreign
          students.




16 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
 • S 1438 (became Public Law 107-107) – National Defense Authorization Act,
   which provided appropriations for the Department of Defense, military
   construction and defense activities of the Department of Energy. The bill also
   included provisions for “recovery audits” to detect erroneous payments.

    The Inspector General met on a number of occasions with members of the
House and Senate and their staffs to review and comment on a variety of issues and
questions regarding proposed legislation affecting the operations and programs of
the Department and the BBG.



Outreach/Media Assistance
The Inspector General briefs all newly appointed ambassadors and new Foreign
Service officers on the role and function of the OIG as well as on specific issues
related to their embassies of assignment. The Inspector General delivered the
keynote address for the Civil Service Orientation Class in February.

    Members of the OIG executive staff provided briefings to three classes of new
Civil Service employees on the role, mission, and services provided by OIG. The
Deputy Inspector General delivered a keynote address at the graduation ceremonies
for a course for new auditors at the IG Auditor Training Institute. The acting
Assistant Inspector General for Inspections addressed a conference of administra-
tive officers, hosted by the Bureau of African Affairs, on the role and services
provided by OIG.

    The Assistant Inspector General for Congressional/Media Affairs, Policy and
Outreach met with the Bulgarian Attorney General, officials in the Bulgarian Minis-
try of Justice, and the Bulgarian Ministry of Interior to discuss legislation and
policies to establish an inspectorate in each of these organizations. Members of the
OIG executive staff met with the Under Secretary General for Internal Oversight
Services of the United Nations to discuss strategies and oversight issues of common
concern.

    During this reporting period the OIG responded to over fifty media inquiries
regarding OIG activities and reports. In addition, radio, television and news articles
concerning the Department, the BBG, and the work of OIG generated seventeen
items for press guidance.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   17 .
           OIG is working toward providing even more products and information to the
       public through the new website. The improved website features user-friendly search
       capability and more extensive coverage of the entire catalog of OIG products.
       Please visit http://oig.state.gov frequently for up-to-date information on OIG
       publications and activities.



       Government Performance and Results Act
       Review
       The Department has made progress in strategic and performance planning. The
       Government Accounting Office, for example, characterized the Department’s FY
       2002 Performance Plan as a sig- nificant improvement over earlier plans, although
       some deficiencies remain. For example, performance targets are vague, and there is a
       lack of clear explanations of how the Department’s efforts relate to those of other
       agencies where responsibilities intersect. In coordination with OIG, the Department
       has developed a strategy to validate and verify the quality of the Department’s
       performance information. The strategy involves identification of the most critical
       measures of success; using a combination of approaches, including OIG reviews
       and self-assessments by program managers, to verify and validate the data and
       systems behind those measures; certifications by program managers that procedures
       are in place to ensure the accuracy of their data; and training of program managers
       on performance data requirements and conducting self-assessments.

           OIG continues to assess Department goals, performance measures, and perfor-
       mance data as an integral component of its audits and inspections. For example,
       OIG found that, for certain humanitarian programs, performance monitoring and
       evaluation are done at the project or country level, but there is no systematic ap-
       proach to evaluating overall progress in meeting program objectives.




18 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
20 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                                      SECURITY


During this reporting period, OIG security oversight inspections were conducted at
Embassies Paramaribo, Suriname, Beijing, Bangkok, Vientiane, Georgetown, and
Consulate General Hong Kong. In addition, compliance follow-up reviews were
completed on the following missions–Embassy Panama City, Panama, Embassy
Brussels, Belgium, the U.S. Mission to the European Union, and the U.S. Mission to
the North Atlantic Treaty Organization.

   Because these reports discuss specific security vulnerabilities of the Department
and its missions, synopses of classified reports will be published in the classified
annex to this report, which has limited distribution. The titles of the classified
reports issued during this semiannual period are listed in the appendix of this
report.

   SIO’s audits division will review the shipment of classified systems, and will
continue its review of the protection of classified documents at Main State.




Enhancing the Protection of Classified Documents
at Department Headquarters (SIO-A-02-35)

OIG initiated a review of the handling of classified information to assess the
Department’s progress in correcting deficiencies noted in the September 1999 OIG
audit report on the protection of classified information at Main State. The Senate
Select Committee in its report for the FY 2001 Intelligence Authorization bill
directed OIG to conduct annual follow up reviews through 2006. Although the
report language was ultimately not included in the legislation, OIG intends to review
the handling of classified information on an annual basis for the next few years. The
report cited below was the first such follow-up review.

    The Department has made significant strides in enhancing the protection of
classified information, especially SCI. In March 2001 the Department signed a
Memorandum of Agreement transferring responsibility for protecting SCI from
INR to DS. The Department has reduced the number of offices where SCI is


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   21 .
       processed, handled, read and discussed, and enhanced the protective measures in and
       for those offices. However, as of the writing of the SCI review, DS had not yet
       assumed the control function for SCI documents from the time a document is
       received, through its use by Department consumers, to its return to its source or
       storage within the Department.

           The number of security incidents has declined since the 1999 OIG report as a
       result of the above measures and other efforts, such as a more aggressive briefing
       program for security awareness and a strengthened reporting program for security
       incidents. Nevertheless, the Department needs to improve further its efforts to
       ensure that all security violations are promptly referred for administrative action.




       Management of the Armored Vehicle
       Program (SIO-A-02-09)

       OIG performed this audit as part of OIG oversight of the Department’s initiatives
       to enhance security of overseas missions in the aftermath of the August 1998
       embassy bombings in East Africa. The purpose of the audit was to determine
       whether the armored vehicle program, which was increased significantly after the
       bombings, is managed effectively and in accordance with applicable laws and regula-
       tions.

           Since 1999, the Department acquired and distributed more than 1,000 armored
       vehicles to all embassies and consulates overseas, more than tripling the
       Department’s fleet of armored vehicles worldwide. This dramatic increase was
       funded for about $100 million, which was provided under the Omnibus Consoli-
       dated and Emergency Supplemental Appropriations Act, Public Law 105-277.

           The Department has undertaken several important actions in connection with
       this increase in the size of the fleet of armored vehicles. In particular, the Depart-
       ment initiated the revision of armored vehicle security standards to identify future
       armored vehicle needs for missions overseas, addressed how the increased require-
       ments will be funded through Fiscal Year 2008, and initiated action to acquire fully
       armored vehicles for embassies and consulates in countries where right-hand drive is
       the standard.




22 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
   While OIG supports the Department’s actions, additional issues should be
addressed; specifically:
 • The Department should request an authoritative opinion from the National
   Highway Traffic Safety Administration to determine whether the Motor
   Vehicle Safety Act of 1966, as amended (Public Law 89-563), and Federal
   Motor Vehicle Safety Standards apply to the Department’s armored vehicle
   program which is largely overseas;
 • The Department should collect information on armored vehicle operation
   and maintenance problems from all overseas missions annually and attempt to
   address systemic problems; and
 • The Department should develop uniform instructions for the vehicles and
   make annual funding commitments for initial and periodic refresher armored
   vehicle driver training.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   23 .
24 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                                   INSPECTIONS

Review of Domestic Passport Operations
(ISP-I-02-32)

The OIG reviewed CA’s domestic passport operations. The primary objectives of
this review were to assess the adequacy of the internal controls over cashier opera-
tions and with respect to blank passport books at the regional passport agencies. A
secondary objective was to review the adequacy of CA oversight of the passport
offices. OIG initiated this review as part of a follow up to work performed at the
Miami Passport Agency, where major fraud was detected in the cashiering office
during the summer of 2000.

    Overall, OIG found that the Office of Passport Policy and Advisory Services in
CA’s Directorate of Passport Services has established a comprehensive set of
internal control procedures for cashiering and blank passport book controls. If the
established internal controls are followed, the risk of cashiering and blank passport
book malfeasance is minimized. However, OIG found that the internal control
procedures over cashiering were not implemented consistently at five of the six
passport agencies visited. In addition, CA’s management assessment/internal control
reviews are not conducted frequently enough to assess adequately whether internal
controls have been properly implemented. Finally, OIG concluded that the unan-
nounced adjudication audit program is not achieving its primary objective of pre-
venting and detecting malfeasance.



Africa


Inspection of Embassy Freetown, Sierra
Leone (ISP-I-02-22)

The country of Sierra Leone caught the world’s attention in the late 1990s when a
bloody civil war threatened the stability of the region and resulted in the largest UN
peacekeeping operation in recent history. Embassy Freetown was evacuated three


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   25 .
       times in four years. During this period the embassy maintained an active presence in
       Sierra Leone on behalf of the U.S. government, supporting the UN peacekeeping
       operation and working with the British effort that finally succeeded in putting an
       end to the hostilities.

           The embassy is under the Department’s Special Embassy Program, and it should
       remain small. Current staffing calls for around 14 Americans. However, successive
       evacuations and chronic understaffing have devastated the embassy’s administrative
       and consular operations. The Department needs to send temporary-duty teams to
       normalize these operations so that permanently assigned staff can continue them
       more effectively. The FSNs conducted themselves with dignity, integrity, and profes-
       sionalism during periods of high stress and threats to their personal safety.

          The embassy has been understaffed for several years, forcing executive manage-
       ment to devote time to operational matters at the expense of overall management
       and supervision. The Department needs to ensure that the vacant positions are
       promptly and adequately staffed.




       Inspection of Embassy Monrovia, Liberia
       (ISP-I-02-23)

       U.S. relations with the Liberian regime of President Charles Taylor are strained and
       likely to remain so for some time. However, the United States has long-term inter-
       ests in Liberia that justify a continued official presence and active efforts to promote
       democracy and improved bilateral relations.

           The U.S. Embassy in Monrovia has engaged actively with the Liberian govern-
       ment, the private sector, and the public on U.S. policy issues. However, its efforts are
       constrained by host government hostility. In spite of some responsiveness from the
       government in the wake of the September 11 terrorist attacks, the security situation
       for the embassy and private Americans in Monrovia remains precarious.

           Security concerns and political obstacles on official U.S. activity in Liberia should
       keep Embassy Monrovia limited to fewer than 31 Americans for the foreseeable
       future. The embassy has experienced serious staffing gaps over the last several years,
       and the Department needs to fill vacant positions, giving priority to the public
       affairs and consular positions. Embassy Monrovia provides full consular services.




26 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
This is too much of a burden for one consular officer. The Department needs either
to reinstate the vice consul position eliminated this summer or to reduce significantly
the range of consular services provided at the embassy.

    Embassy Monrovia has unique property assets that provide more capacity than is
needed at the present with bilateral relations constrained. However, the OIG recom-
mends against disposing of any property at this time. The property is a valuable
future resource, and, during this period of uncertain circumstances, it provides a
secure base and essential services that are not otherwise available. The OIG urged
that the Department and the embassy undertake a new design study of the main
compound and examine ways that a subsidiary compound might be effectively used
to defray expenses and promote U.S. policy objectives until more extensive U.S.
government operations resume.




Inspection of Embassy Praia, Cape Verde
(ISP-I-02-29)

Cape Verde is a small island nation with a deficit economy dependent on remit-
tances from the United States, where over half of the Cape Verdean population
resides. Embassy Praia provides consular services and seeks meaningful ways to
expand the very limited bilateral relationship, particularly by building on the island’s
role as a mid-Atlantic refueling stop and on ties with its U.S.-resident population.

    The four Americans assigned to Embassy Praia find that simply supporting an
embassy and an active consular operation leaves few resources for other endeavors.
The embassy’s greatest need is for full-time supervision of its administrative opera-
tions, which should be provided by the deputy chief of mission. Management
controls are generally in place but need strengthening in some areas. Regional
support from Embassy Dakar is excellent.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   27 .
       Inspection of Embassy Banjul, The Gambia
       (ISP-I-02-30)

       With no immediate U.S. interest present in The Gambia and with an inauspicious
       environment for an effective dialogue with the host government, Embassy Banjul
       should have as its goal raising the public profile of the United States through public
       diplomacy in ways that would highlight the significant assistance the United States is
       providing to the people of The Gambia. Current embassy resources are sufficient
       for this purpose. Reporting on internal developments is more than adequate, but
       more could be done on other matters of interest to Washington readers like The
       Gambia’s role in regional problems.

            Embassy Banjul must contend with deterioration in The Gambia’s basic infra-
       structure, spending a significant amount of time and energy generating electricity
       and air conditioning and maintaining vehicles. As in other embassies in the region,
       the number of American staff is small. Staff should be assigned taking into account
       experience and professional expertise, especially with respect to consular and admin-
       istrative affairs.

           Embassy Banjul has improved its security posture significantly since the estab-
       lishment of a RSO position in 1999.




       Inspection of Embassy Nouakchott,
       Mauritania (ISP-I-02-31)

       Embassy Nouakchott has built a promising relationship with the government of the
       Islamic Republic of Mauritania by developing and promoting humanitarian, social,
       and antipoverty programs, which, though, small are well focused. This beginning
       offers the promise of a broader relationship, including a more significant role for
       Mauritania in the U.S.-led coalition against terrorism.

           Despite the adversities and frustrations inherent in a small, remote hardship
       post, including curtailments and staffing gaps, Embassy Nouakchott is well led and
       well administered. The human, financial, and physical resources committed to




28 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Nouakchott are appropriate and sufficient, except in the area of facilities mainte-
nance. This deficiency should be addressed by the assignment of experienced
general services or facilities maintenance personnel.

    Intermittent supervision caused by staffing gaps has led to significant problems
with respect to inventory controls and financial management. The embassy is now
addressing these problems. Past security programs suffered from a lack of supervi-
sion. Embassy security has improved rapidly and significantly following the estab-
lishment of a RSO position in 1999.



Europe


Inspection of Embassy Vatican, Vatican City
(ISP-1-02-14)

Embassy Vatican deals diplomatically with the world’s smallest city-state, whose
leader, the Pope, exercises immense influence throughout the world, often affecting
U.S. policy objectives. The Vatican and the United States share concern for the
Balkans, the Middle East, Africa, and for international human rights, population and
UN social issues. The papacy also follows closely and speaks publicly on important
issues such as the war in Afghanistan and terrorism.

    Embassy Vatican’s priority goal is maintaining a constructive relationship with
the Vatican leadership and effectively advocating U.S. policy positions. Embassy
Vatican has extensive reporting and representational responsibilities. However, its
public diplomacy and its analytical reporting activities seem less focused and would
benefit from a more structured approach. Embassy Vatican’s efforts to promote U.S.
commercial interests are laudable, but the recent Independence Day event was lavish
and some fundraising for social events was inappropriate.

    Embassy Vatican relies on Embassy Rome for administrative, security, and public
affairs support. Embassy Vatican handles its own procurement, motor pool, mainte-
nance and gardening, and management controls are adequate. This division of
administrative services between the two missions works well.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   29 .
       Inspection of the U.S. Mission to the UN
       Agencies for Food and Agriculture in Rome
       (ISP-I-02-16)

       The U.S. Mission to the UN Agencies for Food and Agriculture (FODAG) is a small,
       busy, well-integrated interagency operation managing a diverse portfolio of signifi-
       cant programmatic and policy issues, engaging principally two major international
       agencies, the Food and Agriculture Organization (FAO) and the World Food Pro-
       gram (WFP). The United States remains the largest contributor to both organizations
       with $73 million annually to FAO and $1 billion to WFP in 2001. WFP, in contrast to
       FAO, has the flexibility to deal with crisis issues that may be of direct importance to
       U.S. policy goals, such as the oil for food program for Iraq, famine assistance for
       North Korea, and humanitarian assistance for Afghanistan.

           The mission does a solid job of defending United States interests and displays a
       high degree of interagency coordination, cooperation and collegiality. A new chief
       of mission was nominated in October, 2001. In the past, the decision to confer the
       rank of ambassador on the chief of mission has been an ad hoc one. It is an appro-
       priate time to assess whether the mission should be headed by an ambassador on a
       permanent basis.

           Embassy Rome provides the mission with almost all of its administrative sup-
       port. The most serious management/resource issue facing the mission is the press-
       ing need to find a new location for the mission offices.




       Inspection of Tallinn, Estonia (ISP-1-02-25)

       The security of northern Europe is affected by stability in the Baltic region. So U.S.
       national security interests are served by current U.S.-Estonian cooperation to build
       an Estonian national defense closely linked to North Atlantic Treaty Organization
       (NATO) and an economy tied to the European Union (EU). Estonia’s efforts to
       build a democratic state aligned with the EU coincide with the U.S. national interest
       of promoting democracy globally.

          Membership in European institutions requires that Estonia be a functioning
       democratic state, which meets the democratic community’s human rights/civil



30 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
liberties standards. The embassy is helping Estonia deal with social equality issues
through a variety of assistance programs such as training unemployed non-Esto-
nians and supporting a local law center that provides legal training.

    The embassy operates in a friendly environment and is well positioned to build
strong working relationships with government and public leaders. Embassy resources
include a staff of 33 Americans, a military assistance program of close to $6 million,
about $200,000 in Democracy Commission funds, and total funding of $11.5 mil-
lion.

    The Mission Performance Plan (MPP) has clear, realistic objectives, and reflects
embassy-wide coordination. Operationally, however, the embassy needs to improve
interagency cooperation, especially in the sharing of sensitive information. The
public affairs section carefully manages the public diplomacy grants program. But
overall management of the entire assistance program has been fragmented, and the
embassy is making an effort to coordinate and track the grants program from the
development of proposals through to the awarding of a grant. In addition, reporting
needs to be tightened, eliminating marginal reports. The administrative section
functions well, with good communications and coordination. The major administra-
tive challenge is to restructure nonexpendable property management and establish a
more effective work order system. With cooperation from the Estonian govern-
ment, the embassy tightened perimeter security after the September 11 terrorist
attacks.

    Joint U.S. and Estonian law enforcement organizations work together effectively
to combat transnational crime by helping reduce trafficking in women, fighting the
drug trade, and addressing a difficult money laundering problem.




Inspection of Embassy Vilnius, Lithuania
(ISP-1-02-26)

Embassy Vilnius identified as important objectives the promotion of Lithuania’s
integration into European security, political, and economic institutions and the
further development of democracy and a market economy in Lithuania. After
centuries of foreign domination, Lithuania experienced only a short period of
independence between the World Wars, then regained it in 1991, with the collapse
of the Soviet Union.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   31 .
            Embassy leadership uses public diplomacy extensively to promote U.S. policy and
       interests. Washington analysts praise the embassy’s reporting for its intellectual
       honesty and analytic insight. In the area of military cooperation, the United States
       supports Lithuania’s efforts to join NATO. A steady stream of senior U.S. military
       visitors engage with their Lithuanian counterparts, and the defense attaché office
       drafts some of the embassy’s best reporting.

           Based on future workload, the embassy thinks it can make a good case for
       additional political, consular, military, public diplomacy, administrative, and security
       staff. If and when Lithuania joins NATO and the EU, current staffing will be unable
       to cope with the added political, military and economic requirements.

            The embassy’s current facilities limit expansion. Security, safety, and working
       considerations argue for action on real property improvements, as recommended
       in this and a previous report. The embassy now has a plan that would consolidate
       all embassy operations around the present chancery. A scheduled visit by a De-
       partment space utilization and design team will help in developing the embassy’s
       proposal.




       Inspection of Embassy Riga, Latvia
       (ISP-I-02-24)

       The United States and Latvia share an overarching goal: to anchor Latvia securely in
       the community of democracies. Latvia has made progress in achieving its goal of
       becoming a fully functioning democracy, while its economic transformation has
       proceeded faster and further than that of many other former Soviet republics.

            In general, Latvians respect and admire the United States, and the embassy’s
       working environment is good. The embassy has a staff of 34 Americans and a
       program budget of around $12 million. Approximately 1,000 private American
       citizens live in Latvia.

            The embassy’s MPP is a straightforward blueprint for coordinated action across
       agency lines. It makes an important contribution to redefining the evolving bilateral
       relationship as Latvia approaches membership in NATO and the EU. The embassy
       has an effective public diplomacy program, properly geared to rule of law issues,
       development of democracy, and transparent free market practices, despite a rela-
       tively small public affairs section with modest resources. Reporting is thorough and




32 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
tied closely to U.S. interests. The consular section scores high for good customer
service and for instituting several consular “best practices” in 2000 and 2001. The
administrative section functions well, with good communications and coordination,
both within the section and throughout the embassy.

    The embassy enjoys good morale. FSN morale is particularly good because of
embassy management’s insistence that Latvian employees be treated as respected
colleagues.

    The embassy’s law enforcement working group meets regularly to emphasize the
importance of interagency reporting on known and suspected terrorists and to
provide guidance for submitting names to Washington. In the two months before
the inspection, the embassy relayed information on 29 individuals through the Visas
Viper channel.




Inspection of Embassy Minsk, Belarus
(ISP-I-02-27)

Embassy Minsk spent an exhausting year trying to encourage free elections in
Belarus. The Organization for Security and Cooperation in Europe was a steadfast
ally in an effort to unify the democratic opposition, encourage an independent
press, and foster a free and fair democratic process. In the end, the September 2001
election was not free, but the opposition won at least 40 percent of the vote, an
astounding result in an authoritarian country. In the wake of this election, it is clear
that Belarus has further regressed with respect to democratization. The Belarusian
regime is not only authoritarian but would like to turn back the clock and rejoin
Russia.

     With the election over, the embassy is reassessing policy within the framework
of the MPP. Promoting democracy and human rights will remain the highest prior-
ity. The Belarus regime’s disregard for democratic values is exemplified further by
trafficking in arms to states such as Iraq, Libya, and Iran.

    The embassy utilizes public diplomacy to communicate with the Belarusian
public. A hostile Belarusian security apparatus, which actively seeks to undermine
U.S. government initiatives, has precluded cooperation between U.S. law enforce-
ment agencies and their Belarusian counterparts. There is virtually no cooperation
between Belarus and the U.S. government on issues such as the drug trade, traffick-




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   33 .
       ing in persons, and computer credit card fraud. The embassy limited its pre-election
       reporting in favor of a strong advocacy program to promote civil society and
       democracy building. Nevertheless, Washington analysts praised much of the report-
       ing, especially that from the economic section and the defense attaché.

           Given the hostile political, security, and intelligence environment, the Depart-
       ment should assign more experienced personnel to Minsk and limit the assignment
       of first-tour officers who are now a significant portion of the staff and often
       inadequately briefed for such a difficult tour of duty.

           The embassy is alarmingly overcrowded and in need of major renovation.




       Inspection of Embassy Valletta, Malta
       (ISP-I-02-15)

       Bilateral relations between the United States and Malta are good. Given the island’s
       strategic location, security/defense related issues dominate the relationship, ranging
       from the transit of weapons of mass destruction materials to some 40 U.S. Navy
       ship visits annually. Embassy Valletta actively promotes U.S. trade and investment.
       The embassy effectively uses public diplomacy as an essential tool across the spec-
       trum of U.S. interests.

           New embassy managers have achieved in an admirably short time a high degree
       of internal cohesion in a mission formerly divided by conflicts within the embassy’s
       leadership.

           The chancery is inadequate to the needs of the mission. The Department and
       the embassy should identify alternatives for relocating the chancery on a priority
       basis. The RSO has performed well. Overall, administrative services are adequate,
       and the budget and fiscal unit is well run. However, there are a number of problem
       areas in the administrative section which require attention, and, in the case of
       information management, Department assistance. These include weaknesses in
       inventory controls, inadequate oversight of the American Employees Association,
       and the need to strengthen FSN personnel management. There are residual problem
       areas in the consular section, which are being addressed. Throughout the mission,
       priority attention needs to be given to professional training for FSNs.




34 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Western Hemisphere


Inspection of Embassy Nassau, Bahamas
(ISP-I-02-01)

Reflecting U.S. interests in The Bahamas, the embassy’s MPP emphasizes
counternarcotics, border security, and law enforcement issues. Virtually all federal
agencies, dealing with these issues, are accredited to The Bahamas. The embassy’s
chargé effectively coordinates the efforts of these agencies.

    The mission’s efforts are directed to strengthening already good bilateral rela-
tions with the current Bahamian government. The embassy worked closely with the
Bahamian government in changing its financial controls and monitoring of money
laundering, which subsequently permitted the G-7 to remove The Bahamas from
the list of non-cooperating countries.

   Consular services in Nassau are important, with three million Americans visiting
The Bahamas annually. The consular section is well managed.

     Morale at the embassy is low in large part because some staff believe that adminis-
trative services are not customer service-oriented and that, as a result, services are
unevenly or unfairly distributed. In addition, the fact that the embassy is located in
three different facilities makes achieving a sense of community a challenge.




Inspection of Embassy San Jose, Costa Rica
(ISP-I-02-04)

The good relations between the United States and Costa Rica are based on shared
values and the latter’s commitment to effective, democratic governance. A strong,
effective leadership that has encourages creativity, and interagency collegiality charac-
terizes embassy operations.

   Though third on its list of MPP priorities, counternarcotics programs and
oversight consume more embassy resources than any other single function. The
mission’s operational and infrastructure programs in this sector are well coordinated,



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   35 .
       but are less than totally effective because of factors that are beyond the embassy’s
       control. They include lack of a regional strategy and poor intra-regional coordination.

          A large resident population of American citizens and visits by hundreds of
       thousands more each year also dominate embassy attention. Though well managed
       and customer-oriented, the section suffers from inadequate work space. Political-
       economic section benefits from inspired leadership and produces good economic
       reporting, but the section should reduce the frequency of its self-generated macro-
       economic review.

           The United States Information Service (USIS) consolidation took place
       smoothly, and public affairs support to embassy activities is said by its recipients to
       be generous and effective. However, the process is not complete. The former USIS
       reproduction center should be merged with the embassy printing operation, and the
       embryonic information resource center should, like the commercial library and the
       environmental information center, be made part of a single mission reference
       center. The regional English-language position should be moved to another, Central
       American country on departure of the incumbent where the need is greater.

          Administration is good; financial and information management is outstanding.
       Management controls are in place, but they did not prevent a serious vulnerability
       from developing with regard to the employee association.




       Inspection of Embassy Guatemala City,
       Guatemala (ISP-I-02-05)

       Embassy Guatemala City works in a complex and conflictive environment. Aiming
       over the long term to eradicate the political and social causes of a 36-year civil war
       that ended in 1996, and, in the short term, to combat large-scale drug and alien
       smuggling, the embassy adheres to a focused and operational MPP.

           Embassy operations benefit from the fact that the U.S. and Guatemalan agendas
       coincide. On the other hand, they are hampered by the Guatemalan government’s
       identification with corrupt practices and by its failure to maintain momentum in
       implementing the peace accords that ended the civil war. Declining U.S. aid levels
       and limited Washington interest in Guatemala further complicate the embassy’s task.
       Morale is as good as it can be given problems like crime, threat of earthquake, and
       latent political instability.




36 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    Mission leadership is strong and purposeful. Interagency relations are for the
most part good, but the U.S. military presence, a vestige of the civil war period,
remains sizeable. Core functions are performed well, with the consular affairs
workload mushrooming in size and complexity. The embassy’s large-scale anti-
narcotics operation would benefit from more cooperation among the U.S. embassies
in the region and from a strategic plan involving all Central American countries.
Much of the narcotics that move northwards through Guatemala each year are not
intercepted.

    Overall, administrative operations are satisfactory, but some weak spots exist due
principally to inexperience, personnel shortages and poor budgeting. Management
controls are in place and functioning well, but there is a serious vulnerability in
accounting for consular receipts.




Inspection of Embassy Tegucigalpa,
Honduras (ISP-I-02-06)

A poor country in the process of transition, Honduras presents a complicated
policy challenge to the United States in the form of diverse law enforcement threats
to U.S. security. To combat them the embassy combines a wide range of institution-
building programs with joint U.S.-Honduran law enforcement operations. Efforts to
promote a rule of law that will improve Honduras’ ability to deal with these law
enforcement issues, consume more of the mission’s resources than any other single
function, but these efforts are not clearly articulated in the MPP.

    Embassy Tegucigalpa is well led. Interagency cooperation, including the South-
ern Command’s air facility at Soto Cano, the largest in the region, is also good.

    Economic and consular affairs bear a large share of the embassy’s anticrime
burden. However, the political section, with its traditional reporting, does not appear
to be consistent with embassy priorities and operations. The public diplomacy
consolidation was effected smoothly.

    As is true with other embassy assets, resources are well managed. A sizeable
mission, with 268 Americans and FSNs (excluding USAID contractors) from 22
agencies, the embassy has requested additional positions, only some of which OIG
considers justified. A decline in personnel when Hurricane Mitch assistance funds
run out will be offset by anticipated increases in law enforcement agencies.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   37 .
       Inspection of Embassy Kingston, Jamaica
       (ISP-I-02-02)

       Embassy Kingston successfully coordinates the efforts of the federal agencies,
       accredited to Jamaica, with programs dealing with counternarcotics and law enforce-
       ment. The embassy should enhance its reporting and analysis of developments that
       are likely to affect Jamaica’s ability to offer meaningful cooperation in counternar-
       cotics and law enforcement.

           Two major problems relating to the Bureau of International Narcotics and Law
       Enforcement Affairs activities need to be resolved. First, a large pipeline of unex-
       pended program funds should be reviewed and either used by the Jamaican govern-
       ment or withdrawn. Second, the embassy has been unable to provide verification of
       or account for much of the counternarcotics equipment given to the Jamaican
       government over the years.

           The U.S. government acquired a hotel complex in Kingston for use as a chan-
       cery and clustered housing. However, the Jamaican government has not given any
       assurances that it would approve the use of the complex as a chancery. In addition,
       the embassy has not received funding needed to maintain and renovate the complex,
       and the complex has started to deteriorate. OIG recommended that the Department
       develop a long-range plan to renovate the complex and provide funding for additional
       staff or assign a facilities management specialist to monitor and maintain it.

          American morale is low because of the rising crime rate and high cost of living.
       The embassy has a high incidence of curtailments by staff and difficulty recruiting
       people for vacancies. The chargé is leading an effort to address the morale problems.

          The Department had not yet funded the buy-back costs associated with the
       embassy’s supplemental retirement plan for FSNs. OIG recommended that the
       Department provide the funding.




       Embassy Bridgetown, Barbados (ISP-I-02-03)

       U.S. interests in the seven small Eastern Caribbean countries to which the mission in
       Barbados is accredited focus largely on counternarcotics and law enforcement
       matters. Embassy management is doing a creditable job in coordinating the efforts


38 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
of the federal agencies with programs dealing with these issues. However, coordina-
tion of the economic and political reporting function could be improved.
     With the exception of the counternarcotics and law enforcement functions, the
embassy believes that it is seriously underfunded. The understaffed consular section
strives to manage its daunting workload, but lack of funds is affecting its ability to
carry out its mission. As a result, it must limit routine work. This makes consular
outreach, reporting, training, and travel to outlying islands to provide services
difficult. In addition, the physical plant is in serious disrepair. To bring the embassy
up to a satisfactory level of maintenance and upkeep of physical structures, addi-
tional funds will be needed.
   Relations between the missions in Barbados and Grenada have been cordial and
productive. However, it would be useful to clarify in writing the exact relationship
between the two missions with respect to reporting and administrative matters.
    A fully integrated reporting program would assist the mission in managing its
human and financial resources. At present, travel and reporting are not as coordi-
nated or carefully planned as they might be.
    Morale is mixed at best, with many commenting on a perceived lack of cohe-
sion. The mission has made efforts to improve the quality of life; however, more
needs to be done to give employees a greater sense of community.




Compliance Follow-up Review of the
Inspection of Embassy Panama City, Panama
(ISP-C-02-20)

Embassy Panama City and the Department have done a good job of addressing the
concerns raised by the inspection report (ISP/I-01-02). The embassy agreed with
and promptly acted upon most of the recommendations. On others, primarily
involving American position reductions in the political/economic and public affairs
sections, the post convinced OIG that, in fact, the positions were needed.

    Several recommendations were reissued or modified. The most significant was
the call for a new chancery compound to replace the present insecure, inefficient
chancery and annexes scattered around the city. The Department has responded
positively, and is currently scheduled to begin the process of replacing the chancery
compound in FY 2003. The CFR team devoted considerable attention to the
antiterrorist recommendations for the embassy to “activate its Visas Viper Program


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   39 .
       to require more effective information sharing.” The post made sufficient progress
       on this important recommendation for it to be closed. Similarly focused on U.S.
       border security, an earlier recommendation called for funding a part-time position to
       coordinate the post’s alien smuggling intelligence database. Although OIG previ-
       ously closed this recommendation, the CFR team reissued it because the team and
       the Bureau of Consular Affairs feel that Panama is an important transient illegal
       alien choke point. To help combat this threat, OIG modified and reissued a recom-
       mendation dealing with alien smuggling intelligence coordination.




       Inspection of Embassy Belize City, Belize
       (ISP-I-02-19)

       The chancery and annexes at Embassy Belize City are unacceptable from a security
       standpoint, and the layout of the buildings is not conducive to efficient embassy
       operations. A new office compound has been recommended. Operationally, man-
       agement controls in some administrative areas are weak and must be strengthened.
       There are significant deficiencies with respect to property management, certification
       of vouchers, and in the separation of duties.

          The government of Belize has an active “investor” citizenship/passport pro-
       gram that allows people, primarily Chinese from the mainland and East Indians to


                             Halt of Investor Passport Program
           During an October 2001 inspection of Embassy Belize City, OIG noted
           that the government of Belize had an active “investor citizenship/passport
           program” that allowed people to purchase a second Belizean passport for
           $25,000. Some of these Belizean passports were being used by people,
           primarily from China and India who would otherwise be inadmissible, to
           enter the United States illegally. Bearing Belizean passports, two Leba-
           nese nationals, who were alleged members of a known Middle Eastern
           terrorist organization, applied for U.S. visas during the inspection. OIG
           formally recommended that the embassy take immediate action to per-
           suade the government of Belize to end its investor passport program.
           During the ensuing weeks, the embassy’s front office broached the issue
           with the Belizean prime minister and other cabinet level officials, citing
           Washington’s concern about this controversial program. On January 15,
           2002, amendments to Belize’s constitution finally ended the program.




40 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
purchase a second Belizean passport. Inadmissible aliens, including terrorists, can
use these second passports to enter the United States. The report recommended
that the embassy make the prompt elimination of this program a priority goal, and
the program has been terminated.



East Asia and Pacific


Inspection of Koror, Palau (ISP-I-02-08)

Koror, Palau, is a former UN Trust Territory administered by the United States. A
“Compact of Free Association” commits the United States to establishing full
diplomatic relations and providing significant levels of development assistance. It
also grants citizens of Palau the right to travel to and reside in the United States
without a visa. The United States provides for Palau’s defense and security needs. Palau
has a strong record of support for U.S. positions in the UN General Assembly.

    The U.S. Ambassador to the Philippines is formally accredited to Palau, but a
chargé d’affaires is resident in Koror and is the primary U.S. representative to the Palau
government. Koror faces critical infrastructure needs. The former chancery is struc-
turally unsafe and has been evacuated. Embassy personnel are working out of the
former chargé’s residence. Koror also needs additional regional administrative support.
More frequent visits from Embassy Manila or an alternative regional support facility
are essential to provide the embassy with necessary professional expertise.




Inspection of Embassy Majuro, Marshall
Islands (ISP-I-02-10)

The Republic of the Marshall Islands is a former UN trust territory administered by
the United States. A “Compact of Free Association” commits the United States to
establishing full diplomatic relations and providing significant levels of development
assistance. It also grants citizens of the Marshall Islands the right to travel to and
reside in the United States without a visa. The United States provides for the
Marshall Islands’ defense and security needs. The Republic of the Marshall Islands
has a strong record of support for U.S. positions in the UN General Assembly.


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   41 .
           The “Compact of Free Association” with Majuro expired in 2001. A two-year
       grace period ensures that it will remain in effect until negotiations for a new com-
       pact are completed. Negotiations have been underway for some time now. Congress
       must ratify a renegotiated compact by the end of that grace period or terms of the
       present compact will lapse.
           The Marshall Islands are home to the U.S. military’s Reagan Test Site, located on
       Kwajalein atoll, where over 2,400 Americans and 1,500 Marshallese are employed.
       The Reagan Test Site is currently the only U.S. missile range that tests the “bullet-
       hits-the-bullet” missile defense system. The embassy has identified support for the
       Kwajalein base as its top mission priority. Relations between the base and the em-
       bassy are good.
          Majuro has a long history of staffing gaps and curtailments that have resulted in
       administrative and management control problems. The Ambassador has been
       proactive in addressing these issues. Improved regional support is key to resolving
       mission problems.




       Embassy Kolonia, Federated States of
       Micronesia (ISP-I-02-09)

       Kolonia, Micronesia, is a former UN trust territory administered by the United
       States. A “Compact of Free Association” commits the United States to establishing
       full diplomatic relations and providing significant levels of development assistance.
       It also grants citizens of Micronesia the right to travel to and reside in the United
       States without a visa. The United States provides Micronesia’s defense and security
       needs. Micronesia has a strong record of support for U.S. positions in the UN
       General Assembly.
           The “Compact of Free Association” with Kolonia expired in 2001. A two-year
       grace period ensures that it will remain in effect until negotiations for a new com-
       pact are completed. Negotiations have been underway for some time now. Congress
       must ratify a renegotiated compact by the end of that grace period or terms of the
       present compact will lapse.
          Embassy Kolonia is likely to lose its chancery within five years as its foundation
       continues to erode. Work must begin now to identify potential new locations.
       Locally hired American citizens provide the bulk of the embassy’s administrative
       support. Appropriate regional offices must do a better job of supporting the
       Kolonia team in both administrative and security matters.


42 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Embassy Suva, Republic of Fiji (ISP-I-02-11)

The U.S. Embassy in Suva is accredited to Fiji, Tonga, Tuvalu, and Nauru. It has
consular and commercial responsibilities in French Polynesia, New Caledonia, and
the Wallis and Futuna Islands. Embassy Suva also represents the U.S. Commander-
in-Chief for the Pacific Region in all these areas. All four of the states to which
Embassy Suva is accredited are full voting members of the UN General Assembly.

    Fiji gained its independence in 1970 after nearly a century of British control. It
is by far the largest and politically most complex of the states Embassy Suva serves.
In May 2000, a group of indigenous Fijians attempted a coup against the prime
minister. They held the prime minister and other members of parliament hostage
for 56 days. During the crisis, civil unrest broke out, and security forces illegally
seized power. In July 2000, the security forces stepped down. Elections in August
2001 resulted in a narrow victory for an indigenous Fijian party. The new prime
minister has prolonged the political crisis by refusing to accept opposition politi-
cians into his cabinet, as required by the constitution.

    Support for a return to democracy and constitutional rule in Fiji is Embassy
Suva’s top mission priority. The Ambassador, who departed in June, 2000, and the
chargé d’affaires enjoyed full access to senior government officials throughout the
months of political crisis.

     Over 100,000 American tourists visited Embassy Suva’s consular district annually
in recent years. An additional several thousand American citizens live throughout the
islands. In light of recent political and social instability in Fiji, American citizens
services and emergency preparedness have taken on added importance.

     Promoting U.S. national security interests in the region is another major priority.
Fiji has long been actively involved in international peacekeeping efforts. Twenty-five
percent of the Fiji military is on active duty in the Sinai and in Lebanon at any given
time. The U.S. military continues to maintain a defense attaché office at the embassy.

    The Peace Corps has approximately 50 volunteers on the island of Tonga. The
small island nation of Nauru has become a major center for international money
laundering and has been singled out as a non-cooperating country by the G-7.
Embassy Suva is actively involved in U.S. bilateral efforts to address the situation.

    Embassy Suva is under the Special Embassy Program. Department staffing
includes 11 direct hire positions.



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   43 .
                                             Best Practices
          Embassy Riga – Best Practice: Training Plan
          Embassy Riga needed a way to link training needs with Mission Performance
          Plan goals and the resources available to fund courses and travel. To accom-
          plish this, the embassy developed a system to survey the training needs of all
          Department personnel. This data is maintained in a priority listing of training
          scheduled, including dates of courses and necessary funding for tuition and
          travel. The system has become a useful tool that allows embassy manage-
          ment to ensure that training needs are met, resources are available for train-
          ing, and the training promotes the embassy’s goals.
          Embassy Tallinn – Best Practice: Contracting Local Hire Administrative
          Assistants
          In order to maintain a cadre of trained support staff to cover temporary in-
          creases in workload or provide backup in the absence of full-time employees,
          Embassy Tallinn maintains four to six administrative assistant positions to
          be available as needed on an intermittent basis. The embassy performs back-
          ground checks on qualified adult family members of FSN or personal services
          agreement full-time staff. Because the family members have good administra-
          tive skills and work only when needed, the cost is low and does not have a
          major effect on the budget. The short on-the-job training given to these employ-
          ees is also inexpensive. The embassy does not allow members of the same
          family to work together. As a result, the embassy has a readily available work-
          force of administrative assistants to work as receptionists, perform consular data
          entry, help with special projects, and escort visitors or workmen in the chan-
          cery. As an added benefit, local staff family members gain work experience.
          Embassy Vilnius – Best Practice: Tracking U.S. Government Assistance
          Embassy Vilnius wished to track the complex array of bilateral, regional, and
          Washington-funded programs administered by the embassy, the U.S. Agency
          for International Development (USAID), several U.S. Cabinet agencies, and a
          variety of nongovernmental organizations. The Ambassador asked a USAID
          FSN to draw up a list of all assistance programs. Country team members were
          required to provide the input. The resulting display of what the United States
          does in Lithuania has proven an invaluable briefing document. The document
          has been a particularly effective way to show how taxpayer funds are spent.
          Best Practice: Administrative Information on the Desktop
          In an effort to better distribute administrative procedures and provide contact
          information for various administrative services, all administrative policies and
          procedures for Embassy Vilnius are published on the embassy’s Intranet site
          on an administrative page, available on every employee’s desktop for easy
          reference. The web site includes photos of staff by section within the adminis-
          trative office and a description of duties. All employees are aware of adminis-
          trative policies and procedures and know whom to contact for service.




44 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Embassy Port Moresby, Papua New Guinea
(ISP-I-02-12)

Embassy Port Moresby is accredited to three countries: Papua New Guinea,
Vanuatu, and the Solomon Islands. The U.S. presence in the region during World
War II forged a legacy of cooperation that is remembered to the present day.

    Serious political, social, and economic problems threaten effective governance in
each of these states, particularly in the Solomon Islands. The high rate of violent
crime in Papua New Guinea is both a domestic and a bilateral issue. The Peace
Corps closed its Papua New Guinea operations in 2001 due to concerns about the
safety of volunteers. The only remaining Peace Corps presence in the region is in
Vanuatu, where some 40 volunteers live and work.

    The Ambassador has effectively used the MPP process to review embassy goals
and objectives. Embassy Port Moresby has identified security of Americans as its
highest priority. Nearly 2,500 Americans live and work in Papua New Guinea,
Vanuatu, and the Solomon Islands. The embassy has developed a widespread war-
den network to keep Americans informed of security problems. The OIG has
recommended that the embassy ask CA to designate an experienced consular officer
to serve as a regional consular officer for Port Moresby.

    Promoting democracy and human rights is Embassy Port Moresby’s second
highest priority. It will take on added importance as Papua New Guinea conducts
parliamentary elections in 2002. Developing greater bilateral contacts and promoting
economic development round out MPP priorities.

    A combination of local security concerns and budget cutting in Washington has
resulted in a considerable reduction in the U.S. presence in Port Moresby over the
past six years. As noted above, Peace Corps has closed its operation. USAID and
USIS left Port Moresby in 1994 and 1996, respectively. In the same period, the
Defense Department closed its resident defense attaché office.

   Limited access to senior Papua New Guinea officials has also been a serious
constraint on relations. This situation has changed, however, and the Ambassador
now meets regularly with senior policy makers, up to and including the Prime
Minister and cabinet officials. Port Moresby is under the Special Embassy Program.
There are nine direct-hire Americans.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   45 .
46 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                                        AUDITS


OIG Review of the Overseas Explosive
Detection Program (AUD/PPA-02-08)

In response to a January 2001, congressional request, the OIG reviewed certain
aspects of the overseas explosive detection program. The objectives of the review
were to address concerns about possible irregularities in the procurement process
and alleged false positives in the use of explosive detection equipment. Also, the
OIG reviewed DS’ management controls in operating, maintaining, and accounting
for explosive detection equipment.

   The principal findings were: (1) the procurement of explosive detection equip-
ment was in accordance with federal regulations; (2) explosive detection equipment
operated without false positive readings and had not experienced any significant
downtime; and (3) management controls were adequate, although program improve-
ments and efficiencies could be implemented concerning maintenance of equip-
ment and property management.




Information Technology Vulnerability
Assessment for the Central Financial
Management System (AUD/FM-02-15)

The GMRA requires that the Department’s principal financial statements be audited
annually. Audits of the principal financial statements require, among other things,
assessing the adequacy of the internal control process for recording, accumulating,
and reporting financial data. This, in turn, requires an assessment of the security of
the automated systems that process financial data. At the OIG’s direction, indepen-
dent external computer specialists performed a vulnerability assessment of the
Central Financial Management System.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   47 .
            OIG found that the specific security features associated with the Central Finan-
       cial Management System application appeared to function correctly and were well
       managed. Most of the vulnerabilities detected pertained to system configuration
       issues that could be corrected without affecting overall network performance or
       availability. Many of these issues were also noted during another vulnerability assess-
       ment, which suggests that similar problems may exist throughout the Department’s
       information technology infrastructure.




       Department of State Humanitarian Response
       Efforts for Women Refugees and Conflict
       Victims (AUD/PR-02-09)

       OIG’s review determined that progress in providing women with assistance in
       public health, food and nutrition and developing job skills has been made. However,
       reduced international donor support for food in Africa hampers refugee response
       efforts and programs. Continued attention is needed to integrate women’s issues
       into international and nongovernmental regular or core programming and to de-
       velop international standards for addressing psychological social distress or health
       problems.

           The Bureau of Population, Refugees, and Migration (PRM) has been at the
       forefront of promoting the integration of women’s humanitarian needs into all
       aspects of programming. Performance monitoring and evaluation are done at the
       project or country level, but there is no systematic approach to reviewing overall
       progress toward meeting women’s policy and program objectives. OIG recom-
       mended that an automated database for retrieving and analyzing project proposals,
       projects, and progress toward meeting policy and program objectives be on line by
       this year.

           OIG found PRM-funded international organizations are generally less account-
       able in terms of performance than nongovernmental organizations. The inclusion
       of women’s issues and activities into international organizations’ core budgets is a
       goal shared by many in the humanitarian community. In the short term, PRM is
       funding some women’s activities separately to ensure that their needs are being
       adequately met.

           Women’s initiatives and programs are diverse, ranging from services for the
       protection of victims of sexual violence to income-generating projects. OIG recom-
       mendations included that PRM establish: (1) performance objectives and perfor-


48 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
mance indicators, and an evaluation mechanism for mainstreamed sexual violence
protection programs, (2) standards to measure performance in the area of psycho-
logical social distress, and (3) time frames for income-generating projects to demon-
strate sustainability. OIG also recommended that PRM track the implementation of
lessons learned and best practices by U.S.-funded international organizations.




Survey of Civil Service Leadership Training
(AUD/PR-02-22)

OIG found that the Department has made significant progress in recognizing the
importance of leadership training for Civil Service employees. Foremost among the
Department’s efforts are the Leadership Competencies Development Initiative
(LCDI) developed by the Office of Civil Service Personnel (HR/CSP) and the
School of Leadership and Management (LMS) training at the Foreign Service
Institute (FSI). Almost all of the 91 employees OIG interviewed believed that the
Department has taken positive steps in this area. However, despite various efforts by
FSI to publicize leadership and management courses, 55 percent of the employees
OIG interviewed said they were not aware of the LMS. Further, many of the
employees who had signed up for the LCDI, and were counted as participants by
HR/CSP, have not met basic program requirements, such as completing Individual
Development Plans.




Review of Intragovernmental Receivables
(AUD/FM-02-06)

This is the second of two OIG reviews of accounts receivable in the Department.
The Department’s accounts receivable consist of debts owed to the Department by
the public and by other governmental agencies. This report is based on the review
of debts owed the Department by other federal agencies (intragovernmental receiv-
ables) and completes OIG’s review of accounts receivable. Accounts receivable
totaled over $128 million at the end of fiscal year 1999, of which $93.8 million
represented intragovernmental receivables.

   The principal objectives of the review were to determine whether the Depart-
ment properly accounts for and records intragovernmental receivables for financial



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   49 .
       records and statements, whether adequate internal controls and management prac-
       tices are in place over intragovernmental receivables, and whether performance
       measures relating to accounts receivables have been established and the data used
       for measurement valid.

           OIG determined that the Department did not properly account for debt owed
       the Department by other agencies. As a result, accounts receivable were significantly
       overstated. In addition, there were insufficient controls over reimbursable agree-
       ments, collection processes, payment processing and recording, and the accounts
       receivable computer system. Further, the Domestic Accounts Receivable Tracking
       System did not produce a reliable aging schedule.

           Major recommendations include establishing procedures to ensure that advance
       payments and cash sales for services provided to other agencies are properly ac-
       counted for and that offices share information better. OIG also recommended that
       an allowance for doubtful intragovernmental receivables should be included in the
       Department’s audited financial statements. OIG made other suggestions to improve
       performance measurement as mandated by the Government Performance and
       Results Act of 1993.




       Review of U.S. Support to the International
       Police Task Force in Bosnia (AUD/PPA–02-20)

       In response to a congressional request, OIG reviewed the Department’s program
       that supports the International Police Task Force (IPTF) in Bosnia. This review also
       included an evaluation of allegations that appeared in the media of misconduct by
       U.S. police offices serving with the United Nations (UN) in Bosnia.

           In February 1996, the Department awarded a contract to DynCorp Aerospace
       Technology, Ltd. (DynCorp) to provide police officers in support of the IPTF
       mission in Bosnia. The main task of the IPTF was to bring the local police force up
       to European standards. IPTF has no executive authority, its members do not carry
       weapons, and they have no arrest powers. IPTF monitored, observed, and inspected
       law enforcement activities and facilities; advised and trained local law enforcement
       personnel; and assessed threats to the public order. A principal finding was that
       enhancements in recruiting, screening and training processes have improved the
       quality of officers serving in Bosnia. The process for selecting and training officers
       now appears thorough and complete. Interviews with 75 of the 101 officers serving



50 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
in Bosnia showed that they rated the recruiting and training process as good or very
good. Another key finding determined that, since 1996, only about two percent of
the over 900 officers who have served in Bosnia had to be dismissed; this percentage
reflects the number of officers formally terminated for a variety of causes, including
misconduct, AWOL, and insubordination. OIG also found that an additional 2.7
percent of officers had resigned while under review for similar conduct issues or
had gone AWOL and never returned. No formal action had been taken to terminate
those officers for cause. Finally, OIG concluded that, in general, contract adminis-
tration was adequate; however, contract modifications were approved without
adequate consideration for contract competition. The initial contract was for $4.5
million, and it now totals over $270 million as a result of adding other police opera-
tions in other countries. The Department should have considered issuing a new
competitive procurement as the scope of the contract expanded.

   Major recommendations include steps to strengthen contract administration and
procedures and to draft a new contract that should be competitively advertised in
2002.




Foreign Service National Payroll
(AUD/FM-02-24)

During the audit of FSN payroll, OIG found that overall the payroll system com-
pensated FSNs in a reasonably accurate manner. However, OIG did identify con-
cerns with the FSN payroll process and with its performance standards and mea-
sures.

   For instance, OIG found that the three systems used to process FSN payroll
were not integrated. OIG also found that the FSN payroll system was antiquated
and did not meet the Department’s needs. In addition, although the Department
had developed a standardized personnel system, its use was not mandated. OIG also
found that the performance standards and measures related to FSN payroll did not
adhere to guidelines established by the Department.

    Due to staff turnover and other office priorities, the audit was cancelled. OIG’s
findings to date were forwarded to the Department for its use in improving the FSN
payroll process. OIG believes that these concerns could be resolved by developing
and using an integrated personnel and payroll system.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   51 .
       Audit of the U.S. Department of State 2001
       and 2000 Principal Financial Statements
       (AUD/FM-02-10)

       The GMRA requires that the Department’s Principal Financial Statements be au-
       dited. The objectives of the audit are to report on whether the financial statements
       fairly present the Department’s financial position and results of financial operations
       in accordance with generally accepted accounting principles, to determine whether
       the Department had an internal control structure that provided reasonable assurance
       of achieving internal control objectives, and to determine whether the Department
       complied with applicable laws and regulations.

            Under OIG’s direction, an independent external auditor issued an unquali-
       fied opinion on the Department’s 2001 and 2000 Principal Financial Statements.
       Although an unqualified opinion was issued, the report brings to management’s
       attention concerns about security over the unclassified network and the Paris
       Accounting and Disbursing System; the inadequacy of internal controls over the
       management of undelivered orders; and the inadequacy of the Department’s finan-
       cial and accounting system, which is both an internal control weakness and an issue
       of noncompliance with several laws and regulations.




       Agreed-Upon Procedures Reports on Federal
       Intragovernmental Activity and Balances
       (AUD/FM-02-17), and Agreed-Upon Procedures
       Report on Federal Agencies’ Centralized Trial
       Balance System (AUD/FM-02-18)

       The Department of the Treasury (Treasury) annually prepares and submits to the
       President and the Congress an audited financial statement covering all executive
       agencies. Each agency is required to furnish certain financial and operational infor-
       mation to Treasury through the Federal Agencies’ Centralized Trial-Balance System
       (FACTS). Agencies must reconcile and confirm intragovernmental balances with
       their trading partners and ensure these balances agree with FACTS reporting and
       audited financial statements before submitting year-end data to Treasury.




52 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    Under OIG’s direction, a contract auditor performed required procedures solely
to assist Treasury, the General Accounting Office, and the Office of Management
and Budget with accounting for and eliminating intragovernmental activity and
balances in the preparation of agency and government-wide financial statements
and reports. The auditor reviewed the Department’s preliminary and final CFO
Representations for Federal Intragovernmental Activity and Balances; compared
reconciliation amounts to supporting documentation; and traced the adjustments, if
any, to supporting documentation.
     With the exception of Accounts Receivable, Accounts Payable, Earned Revenue,
and Transfers-In, the auditor found only minimal differences in amounts that were
not material to the Department’s financial statements. However, the auditor was
unable to make the necessary comparisons with respect to the items listed above
because the Department was unable to confirm the balances with its trading part-
ners. In addition, the auditor disagreed with the CFO’s responses for these catego-
ries because the auditor did not believe that sending confirmations constituted
completing reconciliations.
    The audits also evaluated management’s assertion that it compared the Summa-
rized FACTS Data to the related information in the agency’s consolidated financial
statements as of and for the year ended September 30, 2001. The auditor deter-
mined that there were no material differences between the FACTS data and the
agency’s financial statements.



Other Financial Statement Audits
OIG audited the International Boundary and Water Commission’s (IBWC) financial
statements as of September 30, 2000 (AUD/FM-02-05); Audit of the International
Cooperative Administrative Support Services’ 2000 and 1999 Financial Statements
(AUD/FM-02-26); and Foreign Service Retirement And Disability Fund Financial
Statements For FY 2001 (AUD/FM-02-19). The IBWC is charged by a series of
treaties between the governments of the United States and Mexico with the applica-
tion, regulation, and the resolution of water and boundary problems along the
United States and Mexico boundary. For FY 2000, IBWC reported assets of $376
million.

    OIG issued an unqualified opinion on all three financial statements. Although
unqualified opinions were issued, the first two reports bring to management’s
attention certain internal control weaknesses. The audits did not identify any in-
stances of noncompliance with laws and regulations that were considered necessary
for disclosure.


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   53 .
       Review of Invoices Submitted by a
       Contractor Under Selected Contractual
       Agreements (AUD/CG-02-16)

       OIG conducted a review of invoices submitted for services provided by two con-
       tractors to determine whether costs claimed by the contractors were reasonable,
       allocable, and allowable, and whether the Department made duplicate payments for
       services provided on agreements with overlapping performance periods. OIG found
       that:
        • The Bureau of Human Resources, Executive Office (HR/EX), approved and
          the Bureau of Resource Management, Payments Division (RM/F/DFS/FO/
          PD), paid invoices that were not allowable or allocable to the agreements. For
          example, the Department paid the contractors for services outside the perfor-
          mance period, for general administrative fees and other fees that were not
          authorized in the contractual agreement, and for services provided by associ-
          ates that were not authorized. As a result, OIG questioned $113,604 of
          $392,480 that the Department had paid to the contractors.
        • As of January 18, 2002, one contractor had submitted an additional eight
          invoices, totaling $139,445, that the Department had not paid either because
          of insufficient funding or because the invoices covered work performed
          outside the performance periods of the applicable agreements. These unpaid
          invoices are considered unauthorized commitments.
        • The Department paid an hourly rate for one contractor’s services without
          determining whether it was fair or reasonable. Because consulting rates may
          vary significantly, it is important to survey at least two or more sources prior
          to establishing a sole source contract rate. We found no documentation
          showing that the contracting officer conducted such a survey. As a result, we
          could not determine whether the established rate was fair and reasonable.
           The Department awarded firm fixed price contracts to obtain one contractor’s
           services, even though, for some tasks there were no specific contract
           deliverables. There is no requirement under a firm fixed price contract for the
           contractor to submit invoices showing detailed task descriptions or daily time
           charges, or to maintain such records. As a result, OIG could not determine
           whether any duplicate payments were made for the same or similar work
           provided by the overlapping contract performance periods, or whether the
           contractor’s charges were properly allocated to the contracts.



54 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    OIG recommended that the contracting officer forward the invoices with
questionable costs to the procurement executive for a decision on whether the
unauthorized commitments should be ratified and require the contractor to reimburse
the Department for the unallowable costs already paid. In addition, the contracting
officer should determine whether a fixed price contract is appropriate for future
services provided by the contractor, and should conduct a survey to determine the
reasonableness of the contractor’s rates before any new awards are made.




Retirement, Health Benefits, and Life
Insurance Withholdings/Contributions and
Supplemental Semiannual Headcount Report
Submitted to the Office of Personnel
Management (AUD/FM-02-07)

Under OIG’s direction, a contract auditor performed required procedures solely to
assist the Office of Personnel Management in assessing the reasonableness of
Retirement, Health Benefits, and Life Insurance withholdings/ contributions, as well
as semiannual headcount information submitted by the Department. No material
differences were noted. However, the auditor identified several instances in which
the Department did not have required forms on file to support employee health
benefits and life insurance elections.




Independent Accountant’s Report on Indirect
Cost Rates Proposed by the International
Rescue Committee (AUD/CG-02-03)

At the request of PRM, OIG conducted a review of indirect cost rates proposed by
the International Rescue Committee (IRC) solely to provide information needed to
negotiate indirect cost rates with IRC.

    Based on the application of the agreed-upon procedures, OIG concluded that
the FY 2000 indirect cost rate was mathematically accurate and supported by IRC’s
accounting and audited financial statements. OIG also identified costs in the indirect




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   55 .
       cost pool that are unallowable in accord with OMB Circular A-122. Further, IRC’s
       accounting system does not identify unallowable costs, and written procedures do
       not exist that would permit such identification.




       Independent Accountant’s Report on Catholic
       Relief Services Under U.S. Department of
       State Grant Agreement No. PRM 81073
       (AUD/CG-02-12)

       At the request of PRM, OIG conducted a financial and compliance review of the
       Catholic Relief Services (CRS) under U.S. Department of State Grant Agreement
       No. PRM 81073.

           Based on the application of the agreed-upon procedures, OIG concluded that
       CRS did not submit financial status reports to the PRM in compliance with the time
       frame specified in the grant agreement. Also, CRS implemented 21 projects; on
       three of these projects CRS claimed a total of $88,143 of expenses in excess of the
       projects’ budget.




       Independent Accountant’s Report on Church
       World Services, Inc.’s FY 1999 Indirect Cost
       Rate Submission Under U.S. Department of
       State Grant Agreements (AUD/CG-02-13)

       At the request of PRM, OIG conducted a review of the Church World Services,
       Inc.’s (CWS) FY 1999 indirect cost rate submission under Department grant agree-
       ments.

           Based on the application of the agreed-upon procedures, OIG concluded that
       the financial schedules prepared by CWS’s independent accountants had been
       prepared in compliance with the requirements of Office of Management and
       Budget Circular A-122.




56 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Independent Accountant’s Report on Reporting by
the U.S. Department of Commerce Under Selected
Interagency Agreements Issued by the U.S.
Department of State (AUD/CG-02-14)

At the request of the Bureau of Nonproliferation (NP), OIG audited reporting by
the U.S. Department of Commerce (Commerce) under five selected interagency
acquisition agreements issued by the Department. In addition, at NP’s request,
OIG reviewed eight specific items relating to Commerce’s administration of the
agreements.

    Based on the audit, OIG concluded that a Commerce contractor, who per-
formed under the agreements, billed more than $150,000 of excess general and
administrative expenses. Also, under the agreements Commerce billed and the
Department paid Commerce $10,355,974 to reimburse Commerce for its costs
under the agreements. As of September 30, 2001, Commerce has reported expendi-
tures of $7,101,983. Accordingly, it needs to account to NP for the $3,253,991
balance.

    Upon review of the eight specific items, OIG noted that Commerce used two
separate accounting systems to account for costs incurred under the agreements.
Neither of these systems provided sufficient data for effective cost management
and control or for subsequent comparison of budgeted and incurred costs for
individual assignments. Also, Commerce received a single bid in response to two
significant solicitations; accordingly, it awarded the contracts without the benefit of
competition.




Freight Forwarding (AUD/FM-02-23)

During an audit of the Department’s freight forwarding operations, OIG found that
the State Transportation and Tracking System (STATS) was not completely or
accurately providing all freight forwarding transactions to the Department’s account-
ing system. Before OIG could complete audit field work, the Department took
several steps to address this issue, including developing a new system to replace
STATS. As a result of the Department’s actions, the audit was discontinued.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   57 .
           However, significant observations were forwarded to the Department for their
       use in improving freight forwarding accounting processes. For instance, OIG ob-
       served that there were inadequate controls over accumulating, classifying, and
       recording revenues and expenses; freight forwarding transactions were not properly
       recorded in STATS; transportation bills were not being audited before payment; and
       freight forwarding offices were not in compliance with certain laws and regulations.




       Independent Accountant’s Report on the
       Material Handling Rate Applied Under a
       Department of State Contract (AUD/CG-02-02)

       At the request of the contracting officer, OIG conducted agreed-upon procedures
       to assess whether the application rate applied to equipment purchases and freight
       forwarding charges incurred under the Department contract for the period July 1,
       2000, through May 31, 2001 were allowable, appropriately allocated and were
       reasonable.

           OIG concluded that the contractor consistently followed its cost accounting
       practices when it added a material handling cost to the amounts it billed for equip-
       ment and freight forwarding under the contract. However, the appropriate material
       handling cost to be added to the amounts billed should be lowered. Therefore, OIG
       recommended that the contracting officer recover $90,794 of the $225,920 material
       handling fees invoiced during the stated period.




58 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                    INFORMATION TECHNOLOGY


Streamlined Processes and Better
Automation Can Improve Munitions License
Reviews (IT-A-02-02)

The munitions export licensing process is an important safeguard to the foreign
policy and national security interests of the United States. However, the process as
managed by the Department’s Office of Defense Trade Controls (DTC) is ineffi-
cient and unnecessarily burdensome on industry and other federal agencies involved
in munitions license controls. OIG found that the process involves extensive use of
manual and paper-based means to transfer information that must be re-keyed into
computer systems by recipient organizations. In addition, the process lacks adequate
tracking mechanisms from beginning to end, resulting in lost and misplaced applica-
tions, as well as additional time and effort. In part, these problems have resulted
from DTC’s internal information technology (IT) infrastructure, which is comprised
of multiple systems that are independent of one another. DTC’s lack of external
connectivity further limits its ability to share data electronically with other organiza-
tions, such as the Department of Defense, also involved in reviewing and approving
munitions licenses.

    DTC recognizes the need to improve its munitions licensing processes and
related information systems and is now developing plans to upgrade its information
technology capabilities. However, its approach focuses primarily on automating
aspects of the existing process and does not include effective risk management
strategies or adequate industry and agency input to help identify and meet require-
ments. Failure to revise business processes prior to investing in new technology
creates the risk of merely automating inefficient ways of doing business. Failure to
coordinate effectively with external export licensing organizations grappling with
similar technology improvement issues results in duplication of effort.

    Recent DTC initiatives are good first steps to improving automated support for
the munitions licensing process; however, more needs to be done for the efforts to
be effective. Building upon initiatives currently underway, DTC can broaden its
efforts to include assessment of the existing munitions licensing process and identi-
fication of required improvements. Working with industry and other federal agen-



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   59 .
       cies involved in the process, DTC can help develop a strategy for providing secure,
       integrated systems and processes to help meet these requirements. DTC has taken
       tentative steps toward improved collaboration; however, sustained interagency effort
       is necessary to improve automation, integrate, and streamline the federal munitions
       licensing process as a whole.

            DTC accepted in full the report’s recommendations, noting only that several
       remedial activities are underway since the period of OIG’s review. DTC also stated
       that beyond the recommendations much of the report’s analysis will serve as a basis
       for consideration of still further measures to strengthen the timeliness and overall
       efficiency of the munitions export licensing system.




       Challenges to Successful OpenNet Plus
       Implementation (IT-A-02-03)

       The OpenNet Plus program is intended to provide every employee of the Depart-
       ment with desktop access to the Internet. The Internet has become an indispens-
       able source of information and a universal method for rapid communications
       among organizations engaged in government and business transactions worldwide.
       Department employees have also become increasingly dependent on the Internet to
       help them carry out their foreign affairs activities in a reliable, fast, and cost-effective
       manner.

           In accordance with OIG’s goal of helping to ensure more effectiveness, effi-
       ciency, and security in the Department’s information technology operations and
       infrastructure, OIG conducted a review of the OpenNet Plus program. OIG’s
       report focused on the Department’s approach to implementing OpenNet Plus
       domestically and at overseas embassies and consulates. Specific objectives of the
       review were to determine whether the Department is adequately planning and
       managing deployment of OpenNet Plus, to determine whether the Department has
       taken adequate steps to ensure security of the OpenNet Plus infrastructure, and to
       identify plans and procedures for monitoring and ensuring proper use of the Inter-
       net in accordance with established policy guidelines.

           The Department is taking a structured approach to implementing OpenNet
       Plus, its program for providing this long-awaited capability. The approach includes a
       deliberate process for ensuring that bureaus and overseas missions meet established




60 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
technical, physical, security, and management requirements for Internet access before
they are granted connectivity through OpenNet Plus.

    However, the Department has not instituted all of the policies needed to support
OpenNet Plus implementation—particularly with regard to eliminating redundant
Internet connections once OpenNet Plus is deployed and monitoring employee use
of the Internet. By instituting the necessary policies, the Department will be able to
avoid duplicative costs arising from maintaining separate Internet networks. Estab-
lishment of a specific Internet monitoring policy and approach will also minimize
the potential for inappropriate use of the Internet in the workplace, and correspond-
ing wasted time and taxpayer dollars.




Classified Connectivity Program: Progress
and Challenges (IT-A-02-01)

The Classified Connectivity Program (CCP) is an ongoing effort within the Depart-
ment to deploy a standards-based, global network for classified information process-
ing and communications to about 250 embassies and consulates overseas. The
program is intended to help the Department to meet the objectives of its Informa-
tion Technology Strategic Plan, FY 2001-05, so as to support international affairs
and diplomatic missions with modern, robust, secure, and cost-effective solutions.
The CCP provides a commercial-style network and modern hardware and software
for classified information processing and exchange at the desktop level. The over-
whelming majority of overseas posts have had no classified connectivity or inad-
equate support from outdated networks, which are increasingly difficult to maintain.
The Secretary’s call for enhanced capabilities in the Department through the use of
state of the art information technology provides the impetus for accomplishing the
CCP within the next two years.

    OIG conducted a review of the Department’s approach to CCP implementa-
tion. Specific objectives of the survey were to determine what, if any, security or
operational problems are inherent in current classified local area networks overseas;
to assess the Department’s approach to planning and implementing its network
modernizations via the Classified Connectivity Program; and to identify what
changes may be needed to the Department’s modernization approach.

   As a result of its review, OIG found that the Department’s initial approach to
C-LAN modernization was largely unstructured and with limited funding made



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   61 .
       minimal progress, completing only about 20 installations in 1998-99 in contrast to its
       original objective of 48 deployments per year over a five year period. However,
       under the direction of the Program Management and Analysis Division within the
       Bureau of Information Resource Management, the Department currently has a
       disciplined CCP approach in place and is making continued progress toward meet-
       ing its objectives. Since assuming responsibility for the project, the division has
       completed an additional 55 deployments, for a total of 75 classified local area
       network modernizations as of September 2001.

            Further, in contrast to prior years’ budget uncertainties, the CCP is now receiv-
       ing adequate funding. After initial mid-year 2001 funding delays that impeded instal-
       lation progress, the program was put back on track with $26 million provided near
       the end of the fiscal year. The funding outlook for the CCP in FY 2002 also appears
       positive. The Department is currently preparing a financial plan, which it will use to
       allocate FY 2002 funds in accordance with congressional direction.

           OIG also found that the Bureau of Diplomatic Security (DS) had not com-
       pleted the steps needed for CCP certification. Certification is the independent,
       technical review of a system to identify risks and ensure that the system meets
       federal information technology security requirements. While DS had provided orally
       a strategy for CCP certification, it had not developed an overall documented plan
       for carrying out the systems certification approach. Also, although steps toward
       certification should be started at the beginning of a system’s life cycle, DS planned
       to delay certifying the CCP concept until late 2002 and did not anticipate conducting
       subsequent certification of missions’ technical and physical environments until 2003.
       In December 2001, DS told OIG that it was planning to hold only its first meeting
       to outline a strategy for CCP certification and expected to have an initial draft of
       the strategy in March 2002.

           Additionally, OIG found that the Department’s information technology contin-
       gency planning efforts have not been adequate to safeguard classified information
       systems and the critical business functions that they support in the event of unex-
       pected disruptions at missions overseas. The Department’s Bureau of Information
       Resource Management (IRM) estimated that as many as 85 to 90 percent of over-
       seas missions did not have information technology contingency plans in place. OIG
       found this to be the case despite the fact that there are multiple toolkits available
       through the Department for developing and implementing the plans. OIG recom-
       mended that IRM coordinate and consolidate its contingency planning program
       with related activities in other Department organizations to help promote consistent
       information technology contingency planning to support not just the CCP, but the




62 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Department’s overall information technology infrastructure. IRM agreed with OIG’s
report, stating that CCP managers are currently soliciting contingency plans from
locations that have modern classified local area network equipment as a means of
developing a template to facilitate plan creation at other posts. IRM also stated that
foreign affairs guidance already requires coordination of such contingency plans in
conjunction with emergency action plans and that IRM working closely with DS in
this regard.




Interagency Review of Federal Automated Export
Licensing Systems, Report No. D-20-02-074

In response to a congressional mandate, the Inspectors General of the Depart-
ments of Commerce, Defense, Energy, Treasury and State (State), conducted an
interagency review of Federal automation programs that support the export licens-
ing and review process.

    The OIGs found that the dual-use export licensing process involves multiple
automated systems owned and operated by the different Federal licensing and
review agencies. Overall limitations include differing security standards among
agencies, cumbersome manual and paper-based processes, and no comprehensive
database of export information available to assist in assessing the cumulative effects
of multiple exports. Dual-use export licensing agencies have made progress in
modernizing their automated systems. However, those agencies can do more to
coordinate their system modernization efforts and may not have adequately consid-
ered other system alternatives beyond enhancing existing licensing system interfaces.

    In addition, the OIGs found that the munitions export licensing process in-
volves multiple automated systems supporting a process that is inefficient and
unnecessarily burdensome, partially because of the uncoordinated manner in which
the Department and other federal agencies have developed and operated licensing
systems. The Department has taken steps to upgrade some aspects of its automated
internal processes. However, the Department’s approach does not include adequate
risk management, identification of requirements, or coordination with industry and
other federal agencies involved in the licensing process.

   The OIGs also found that the U.S. Export Systems Interagency Program Man-
agement Office has achieved much in its partnership with Commerce by planning
and implementing some improvements in the export licensing process for dual-use



Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   63 .
       commodities. However, the U.S. Export Systems Interagency Program Management
       Office is not meeting its original goal of modernizing the entire federal export
       licensing process by providing participating agencies with electronic access to
       pertinent export data. Specifically, the program lacks full participation by the De-
       partment and other involved entities, key project milestones have slipped, and
       funding requirements have not been sufficiently documented. As a result, the
       U.S. Export Systems Interagency Program Management Office has been unable to
       date fully to address inefficiencies, identify requirements, and streamline the federal
       munitions export licensing process.

           The OIGs recommended that the Secretary of Commerce, in conjunction with
       the Secretaries of Defense, Energy, State, and the Treasury, take the necessary
       actions to establish accountability for developing, integrating, and modernizing
       federal automated dual-use export licensing systems without unnecessary duplica-
       tion. The OIGs also recommended that the Secretary of State develop a memoran-
       dum of understanding with the Secretaries of Defense, Energy, and the Treasury
       that will help ensure that federal automated munitions export licensing systems are
       developed, integrated, and modernized without unnecessary duplication. Finally, the
       OIGs recommended that the Secretary of Defense redirect the primary focus of the
       U.S. Export Systems Interagency Program Management Office to automating,
       integrating, and modernizing Defense’s processes for disseminating and reviewing
       export license applications and associated technical documentation within Defense.




64 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                               INVESTIGATIONS


Embezzlement
OIG opened an investigation in the summer of 2000, based upon information
provided by CA concerning financial irregularities at the Miami Passport Agency.
OIG investigators and auditors conducted record reviews that developed evidence
of criminal activities. In August 2000, two cashiers, one of whom was a supervisor,
admitted during interviews that they had taken money from passport fees. Shortly
after this, they were terminated from employment. Additional OIG record reviews
and analysis established the extent of the thefts.

    In August 2001, both of these individuals were indicted on a charge of conspir-
ing to embezzle over $850,000 between May 1997 and June 2000. On January 18,
2002, both defendants pleaded guilty to this charge in U.S. District Court. As part
of the statement submitted to the Court, they admitted that they had used the
stolen money to purchase vehicles, take vacations, and pay other personal expenses.
(00-088)


Contract Fraud
OIG opened an investigation in February 1998, based upon information from the
U.S. Department of Justice, indicating that a large U.S. construction company, which
had contracts with the Department and USAID, was involved in contract fraud.

    In November 1998, OIG coordinated with German law enforcement authorities
in the execution of a search warrant in Mannheim, Germany on the offices of a
German partner of the American company. A review of the documents obtained
during this search provided evidence of a bid-rigging agreement involving the
American company and its partners.

    In July 2001, a federal grand jury in Birmingham, Alabama indicted the Ameri-
can company, its foreign affiliate, and its former president for conspiring to rig bids
and to defraud the U.S. government of more than $250 million on USAID-funded
projects in Egypt between 1988 and 1996.
    On February 4, 2002, the foreign affiliate of the American company pleaded
guilty to the bid-rigging charge, and agreed to pay $54 million to the U.S. govern-


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   65 .
                ment in restitution. On February 12, 2002, a trial jury found the former president of
                the American company guilty of both charges. Sentencing was pending at the end
                of this reporting period. (98-047)


                Visa Fraud
                OIG received information from the U.S. Border Patrol (USBP) indicating that laser
                visas were being issued to Mexican nationals who would not have legitimately
                qualified for such visas, such as criminal aliens, or aliens who had previously been
                deported from the United States. USBP reported that it had seized five such visas
                that had been issued by a particular consulate near the U.S. border; and that in each
                of these cases, the fingerprint on the laser visa did not match the actual fingerprint
                of the person to whom the visa had been issued.
                    An OIG investigator traveled to the consulate in January 2002, and, working
                with the RSO and a USBP agent, conducted record reviews and interviews. Two
                FSNs employed at the consulate admitted that they had conspired to issue laser visas
                to ineligible Mexican nationals. They estimated that they had issued approximately
                60 such visas over the course of approximately one year. They stated that they
                received about $1,000 each for each visa. The FSNs stated that all of these visas
                were issued during off-site visits away from the consulate. They estimated that they
                issued five or six fraudulent visas during each off-site trip.
                   The investigation also determined that two FSNs employed at the consulate had
                engaged in similar schemes. All four of these people were terminated from employ-
                                                        ment. (02-022)
       Types of Cases*
           Passport & Visa Fraud, 27%
                                                              Conflict of Interest
           Employee Misconduct, 34%
                                                              An OIG investigation determined that a
           Miscellaneous Theft, 11%
                                                              senior Department official failed to submit
                                                              a calendar year 2000 Public Financial Disclo-
           False Statements and Claims, 8%
                                                              sure Report after having been sent several
                                                              written notices. As a result of the investi-
           Contract & Procurement Fraud, 12%
                                                              gation, the official paid the required $200
                                                              late filing penalty. In addition, the Bureau
           All Other, 8%
                                                              of Human Resources (HR) proposed a
                                                              three-day suspension of the senior official.
                                                              (02-002)
       0         10         20         30         40
          (*Reflects combined ongoing investigative
       activities for the Department of State and BBG.)



66 .            Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
Geographic Distribution of Investigations*



            Western Hemisphere – 11 cases, 19%

       Domestic                                 Europe – 3 cases, 5%
       35 cases,
         59%                                  Near East              South Asia
                                             2 cases, 3%             0 case, 0%
                                                                                       East Asia and
                                                                                           Pacific
                                                    Africa                              5 cases, 9%
                                                   3 cases,
                         Latin                        5%
                       America
                       0 cases,
                          0%


                                         Boundary representations are
                                         not necessarily authoritative.

       (*Reflects combined ongoing investigative activities for the Department of State and BBG.)




   An OIG investigation determined that a senior Department official failed to dis-
   close an unpaid membership on the Board of Advisors of a Department contrac-
   tor, creating the appearance of a conflict of interest. On October 22, 2001, HR
   issued a letter of reprimand to the senior official for failure to seek ethics advice that
   created the appearance of a conflict of interest and giving preferential treatment.
   (00-101)



   Followup Actions
   OIG opened an investigation in April 1998, based upon information that officers of
   a company based in Northern Virginia were engaged in a large-scale scheme to
   defraud using the EB-5 investor visa program. Under this program, U.S. immigrant
   visas may be issued to foreign nationals who invest at least $500,000 in a business
   that creates jobs in high-unemployment areas of the United States.

       This joint investigation with INS and IRS developed evidence that company
   principals had been involved in submitting numerous fraudulent visa petitions, as



   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   67 .
       well as making other false statements to the government; and that they used funds
       obtained from alien customers, which were to be invested, for their own use. Little,
       if any, money was invested in U.S. businesses, and few, if any, jobs were created.

           In August 2000, the two principal officers of the company were charged in a 61-
       count indictment with visa fraud, conspiracy, money laundering, filing false tax
       returns, failure to file, and bankruptcy fraud. The defendants represented themselves
       in a bench trial during March and April 2001. On August 16, 2001, the Court found
       the defendants guilty of all charges in the indictment. On January 11, 2002, one of
       these defendants was sentenced to 124 months’ imprisonment, and the other was
       sentenced to 112 months’ imprisonment. Both were ordered to serve three years of
       supervised release upon completion of their prison terms. The Court also ordered
       them jointly to make restitution of $17.6 million to the victims of the scheme. (See
       OIG Semiannual Report, April 1 to September 30, 2001, pp. 57-58, and OIG
       Semiannual Report, April 1 to September 30, 2000, pp. 30-31) (98-079)


       OIG opened a joint investigation with INS, IRS, and the Social Security
       Administration’s Office of Inspector General, based upon information that a
       network of individuals was engaged in a scheme involving visa fraud, alien smug-
       gling, and money laundering. This group, operating in several parts of the United
       States and the Czech Republic, was engaged in a conspiracy to profit from the
       employment of unauthorized alien workers in the United States.

           The investigation determined that the group assisted foreign nationals in obtain-
       ing nonimmigrant visas from U.S. consulates by misrepresenting the true purposes
       of the travel, and by providing fraudulent documentation in support of visa applica-
       tions. Once in the United States, many of these foreign nationals were provided
       with counterfeit H1-B visas, which authorize employment. These fraudulent visas
       were then used to obtain social security cards and other identity documents.

           Four Czech nationals, who had been living in the United States, entered guilty
       pleas to felony charges in U.S. District Court in Norfolk, Virginia in February 2000.
       One of these individuals, who had pleaded guilty to conspiracy to launder monetary
       instruments, was sentenced to 84 months’ incarceration, and was ordered to forfeit
       $136,763 in seized assets. The other three individuals received lesser sentences.

          In April 2001, two Slovak nationals residing in Florida were arrested, and subse-
       quently pleaded guilty in Norfolk, VA to charges of knowingly employing ten or
       more aliens. In September 2001, one of these individuals was sentenced to seven
       months’ imprisonment; in November 2001, the other was sentenced to nine
       months’ imprisonment.




68 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
    On July 25, 2001, two naturalized U.S. citizens residing in Florida were indicted
on felony charges related to this scheme. On February 8, 2002, one of these indi-
viduals pleaded guilty to conspiracy to launder monetary instruments. On February
28, 2002, after a jury trial, the other individual was found guilty of conspiracy to
commit money laundering, knowingly employing ten or more unauthorized aliens,
and encouraging unauthorized aliens to enter and reside in the United States. Sen-
tencing is still pending. (See OIG Semiannual Report, April 1 to September 30,
2001, pp. 58-59, and OIG Semiannual Report, October 1, 2000 to March 31, 2001,
pp. 52-53) (99-072)



Hotline
               The OIG Hotline, operated by the Office of Investigations, is a
               prompt, effective channel for employees and others to report inci-
                dents of fraud, waste, abuse, and mismanagement to the Inspector
                 General. Below is a summary of Hotline activity for the agencies for
                  which OIG has oversight.
                        Total allegations received                         166
                        Held for action within OIG                          51
                        Referred to other offices for action                82
                        Not substantiated – no action necessary             33




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   69 .
70 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                    APPENDIX 1: INVESTIGATIVE ACTIVITIES1

Workload                                                        Total Judicial Actions                               31
Cases pending 9/30/01                              89
                                                                Criminal
New cases opened                                   16
                                                                Prosecutive referrals
Cases closed                                       46
Cases pending 3/31/02                              59                              2
                                                                Prosecutive declinations                            3
Preliminary inquiries pending 9/30/01              19           Prosecutive dismissals                              0
Prelim opened                                      38           Acquittals                                          0
Prelim closed                                      38           Indictments2                                        2
Prelim converted to cases                           0           Convictions                                         7
Preliminary inquiries pending 3/31/02              19
                                                                Sentencings                                        13
Total Administrative Actions                        9              Time sentenced                         413 months
                                                                   Time probation                            21 years
Admonishments                                       0           Court-ordered fines                      $17,612,700
Counseling                                          0           Court-ordered restitutions                    $5,000
Curtailment                                         0
Demotions                                           0
Reimbursements                                      0           Civil
Reprimands                                          1           Referrals                                             1
Resignations                                        0           Declinations                                          0
Suspensions                                         0           Complaints                                            0
Terminations                                        4           Judgments                                             0
Administrative referrals                            4           Court-ordered fines                                   0
PFCRA3 referrals                                    0           Recoveries                                        9,000
Savings                                             0
                                                                Total judgments and recoveries                        0




                        Administrative recoveries4                           $          0
                        Judicial recoveries5                                 $ 17,626,700
                        Total Investigative Recoveries                       $ 17,626,700



        1
          This appendix reflects investigative statistics for the Department of State only. Please see page 87 for
   investigative statistics related to BBG.
        2
          Indictments included formal criminal charges brought against a subject. The manner in which charges
   are brought varies from country to country.
        3
          Program Fraud and Civil Remedies Act.
        4
          Includes recoveries from administrative actions, such as reimbursements and savings.
        5
          Includes recoveries from judicial actions, including court-ordered fines and restitutions and civil judgments
   and recoveries.


         The statistics and narrative case descriptions of investigative activities appearing in this Semiannual Report to
    the Congress are the result of reports received from prosecutive and administrative authorities. The final actions may
    be changed at a later date by individual use of administrative and judicial appeals processes.




   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002                         71 .
72 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                       APPENDIX 2: REPORTS ISSUED


Office of Security and Intelligence Oversight
SIO-I-02-01        Embassy Beijing, China                                                                  12/01
SIO-I-02-02        Embassy Bangkok, Thailand                                                               12/01
SIO-I-02-03        Consulate General Hong Kong                                                             12/01
SIO-C-02-04        Embassy Brussels, Belgium & US Missions to NATO and EU                                   2/02
SIO-I-02-05        Embassy Vientiane, Laos                                                                 12/01
SIO-I-02-07        Embassy Georgetown, Guyana                                                              12/01
SIO-I-02-08        Limited-Scope Embassy Monrovia, Liberia                                                  3/02
SIO-A-02-09        Audit of Armored Vehicle Program                                                         2/02
SIO-I-02-10        Embassy Curacao, Netherlands Antilles                                                    3/02
SIO-C-02-16        Embassy Panama City, Panama                                                              2/02
SIO-I-02-17        Limited-Scope Embassy Freetown, Sierra Leone                                             3/02
SIO-I-02-20        Embassy Paramaribo, Suriname                                                             2/02
SIO-I-02-21        Limited-Scope Embassy Minsk, Belarus                                                     3/02
SIO-I-02-22        Limited-Scope Embassy Abidjan, Cote d’Ivoire                                             3/02
SIO-I-02-23        Limited-Scope Embassy Nouakchott, Mauritania                                             3/02
SIO-I-02-25        Limited-Scope Embassy Rome and Constitutent Posts and Embassy Vatican                    3/02
SIO-I-02-27        Limited-Scope Embassy Banjul, the Gambia                                                 3/02
SIO-I-02-29        Limited-Scope Embassy Belize City, Belize                                                3/02
SIO-I-02-31        Embassy Ulaanbaatar, Mongolia                                                            3/02
SIO-A-02-35        Enhancing the Protection of Classified Documents at Department Headquarters              3/02

Office of Inspections (A - Annexes)
ISP-I-02-01 & A    Embassy Nassau, the Bahamas                                                              2/02
ISP-I-02-02 & A    Embassy Kingston, Jamaica                                                                1/02
ISP-I-02-03 & A    Embassy Bridgetown, Barbados                                                             2/02
ISP-I-02-04 & A    Embassy San Jose, Costa Rica                                                            11/01
ISP-I-02-05 & A    Embassy Guatemala City, Guatemala                                                       11/01
ISP-I-02-06 & A    Embassy Tegucigalpa, Honduras                                                           12/01
ISP-I-02-07        Office of American Citizen Services and Crisis Management                                2/02
ISP-I-02-08        Embassy Koror, Republic of Palau                                                         2/02
ISP-I-02-09        Embassy Kolonia, Federated States of Micronesia                                          2/02
ISP-I-02-10        Embassy Majuro, Republic of the Marshall Islands                                         2/02
ISP-I-02-11        Embassy Suva, Republic of Fiji                                                           2/02
ISP-I-02-12        Embassy Port Moresby, Papua New Guinea                                                   2/02
ISP-I-02-14        Embassy Vatican, Vatican City                                                            3/02
ISP-I-02-15        Embassy Valletta, Malta                                                                  3/02
ISP-I-02-16        US Mission to the United Nations Agencies for Food and Agriculture in Rome               3/02
ISP-I-02-19 & A    Embassy Belize City, Belize                                                              3/02
ISP-C-02-20        Embassy Panama City, Panama                                                              3/02
ISP-I-02-21 & A    Embassy Abidjan, Cote D’Ivoire                                                           3/02




       Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002       73 .
  ISP-I-02-22        Embassy Freetown,Sierra Leone                                                              3/02
  ISP-I-02-23 & A    Embassy Monrovia, Liberia                                                                  3/02
  ISP-I-02-24        Embassy Riga, Latvia                                                                       3/02
  ISP-I-02-25        Embassy Tallinn, Estonnia                                                                  3/02
  ISP-I-02-26        Embassy Vilnius, Lithuania                                                                 3/02
  ISP-I-02-27        Embassy Minsk, Belarus                                                                     3/02
  ISP-I-02-29        Embassy Praia, Cape Verde                                                                  3/02
  ISP-I-02-30 & A    Embassy Banjul, The Gambia                                                                 3/02
  ISP-I-02-31        Embassy Nouakchott, Mauritania                                                             3/02
  ISP-CA-02-32       Review of Domestic Passport Operations                                                     3/02

  Office of Audits
  AUD/CG-02-02       Independent Accountant’s Report on Agreed-Upon Procedures
                     on the Material Handling Rate Applied by RDR, Inc.                                        12/01
  AUD/CG-02-03       Independent Accountant’s Report on Application of Agreed-Upon Procedures
                     on Indirect Cost Rates Proposed by the International Rescue Committee, Inc.                2/02
  AUD/CG-02-04       Audit of Costs by the Human Rights Alliance                                               11/01
  AUD/FM-02-05       International Boundary and Water Commission                                                2/02
  AUD/FM-02-06       Review of Intragovernmental Receivables                                                    1/02
  AUD/FM-02-07       OPM Agreed-Upon Procedures                                                                12/01
  AUD/PPA-02-08      OIG Review of the Overseas Explosive Detection Program                                    12/01
  AUD/PR-02-09       DOS Humanitarian Response Efforts for Women Refugees and Conflict Victims                  3/02
  AUD/FM-02-10       Audit of the U.S. Dept. of State 2001 Principal Financial Statements                       2/02
  AUD/CG-02-12       Independent Auditor’s Report on Financial & Compliance Agreed-Upon
                     Procedures on Catholic Relief Services Under U.S. Department of State Grant
                     Agreement No. PRM 81073                                                                    2/02
  AUD/CG-02-13       Independent Auditor’s Report on Agreed-Upon Procedures on Church World
                     Service, Inc.’s FY 1999 Indirect Cost Rate Submission Under U.S. Department
                     of State Grant Agreement                                                                   2/02
  AUD/CG-02-14       Report on Compliance and Internal Control over Financial Reporting Related
                     to Costs Incurred by the US Dept. of Commerce as of September 30, 2001                     3/02
  AUD/FM-02-15       Information Technology Vulnerability Assessment to the Central Financial
                     Management System                                                                          3/02
  AUD/FM-02-17       Procedures Report on Federal Intragovernmental Activity and Balances                       3/02
  AUD/FM-02-18       Federal Agencies’ Centralized Trial Balance System                                         3/02
  AUD/PPA-02-20      Review of U.S. Support to the International Police Task Force in Bosnia                    3/02
  AUD/CG-02-21       Review of Direct Labor and Indirect Expense Rates Proposed by Skidmore,
                     Owings & Merrill LLP                                                                       3/02
  AUD/PR-02-22       Civil Service Leadership Training                                                          3/02
  AUD/FM-02-23       Freight Forwarding                                                                         3/02
  AUD/FM-02-24       Foreign Service National Payroll                                                           3/02

  Information Technology
  IT-A-02-01      Classified Connectivity Progress and Challenges                                               2/02
  IT-A-02-02      Streamlined Processes and Better Automation Can Improve Munitions
                   License Reviews                                                                              3/02
  IT-A-02-03      Challenges to Successful OpenNet Plus Implementation                                          3/02



74 .       Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES

                                         Table I
                         INSPECTOR GENERAL ISSUED AUDIT REPORTS1
                                 WITH QUESTIONED COSTS2


                                                                Number               (Dollars in Thousands)
                                                               of Reports    Questioned Costs Unsupported Costs


 A.      For which no management decision has been
         made by the commencement of the reporting
         period                                                        11            17,415              10,348

 B.      Which were issued during the reporting period                 4               4,072              3,254

 Subtotals (A2 + B)                                                    15            21,487              13,602

 C.      For which a management decision was made
         during the reporting period, based on formal
         administrative or judicial appeal
         (i) dollar value of disallowed costs                          1               1,100                    0
         (ii) dollar value of costs not disallowed                     0                   0                    0


 D.      For which no management decision has been
         made by the end of the reporting period                       15            20,387              13,602

         Reports for which no management decision
         was made within 6 months of issuance                          10             16,315             10,348




 ––––––––––––––––––


  1
      Includes audit reports issued by the Office of Audits and by the Office of Security and Intelligence Oversight.   .
  2
    Questioned costs are costs that are questioned by the OIG because of an alleged violation of a provision of a
 law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
 of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a
 finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




            Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002               75 .
                                       Table II
                       INSPECTOR GENERAL ISSUED AUDIT REPORTS
                WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE1


                                                                                 Number               Dollar Value
                                                                                of Reports          (in thousands)


       A. For which no management decision has been made
          by the commencement of the reporting period                                5                 1,541

       B. Which were issued during the reporting period                              0                       0

            Subtotals (A + B)                                                        5                 1,541

       C. For which a management decision was made
          during the reporting period                                                0                       0

            (i) dollar value of recommendations that were
                agreed to by management                                              0                       0
                – based on proposed management action
                – based on proposed legislative action

            (ii) dollar value of recommendations that were
                 not agreed to by management                                         0                       0

       D. For which no management decision has been
          made by the end of the reporting period                                    5                 1,541

            Reports for which no management decision
            was made within 6 months of issuance                                     5                 1,541




       ––––––––––––––––––


        1
         A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could be used
       more efficiently if Department management took actions to implement and complete the recommendations, includ-
       ing reductions in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on
       loans or loan guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements
       related to the operations of the Department, a contractor, or a grantee; avoidance of unnecessary expenditures
       noted in pre-award reviews of contract or grant agreements; or any other savings which are specifically identified.




76 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
APPENDIX 4: RESOLUTION                               OF     REPORTS & RECOMMENDATIONS


                        PREVIOUSLY REPORTED SIGNIFICANT AUDIT
                       RECOMMENDATIONS1 PENDING FINAL ACTION2

Report  Rec. Report Title                                                                              First
Number Number Recommendation Summary                                                                 Reported



3-PP-014       Maintenance and Repair of Buildings Overseas                                         3/31/94
         1.   Develop a system to identify and monitor the worldwide backlog of
              maintenance and repair deficiencies, including determining an accept-
              able level for the backlog and periodically updating the backlog for
              corrective action taken, additional deficiencies identified, and improved
              cost estimates.


93-A-34/
ARR-95-08 Grants Management Followup                                                                3/31/95
         5.   Require monthly reporting requirements on the project’s status.
         6.   Ensure that data in the grants system is reconciled with data in other
              grant-related systems.


APR-96-07 Exchange Visitor Information System                                                       3/31/96
         3.   Determine the feasibility of electronically transmitting J Visa data
              from sponsor organizations to the EVIS database at USIA.




––––––––––––––––––


 1
   Includes audit recommendations reported as significant in semiannual reports prior to September 30, 2000, on
which Department management has agreed to take corrective action but for which those actions are not yet com-
plete.
 2
   Final action is recorded when a proposed course of action in response to a recommendation has been accepted
by OIG and completed by management to OIG’s satisfaction.




          Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002       77 .
                                             SUMMARY OF AUDIT REPORTS
                         WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



       Management of Secure Communications (SIO/A-97-15), March 1997
       Summary: OIG made 22 recommendations to the Director General of the Foreign Service and the
                Director of Personnel (now Human Resources) to require personnel, like IM specialists
                staff, who hold positions with access to bulk quantities of sensitive information to undergo
                a special counterintelligence screening process prior to each assignment. Three of the
                recommendations remain unresolved, which were assigned to the Director General of the
                Foreign Service.
       Reason Unresolved: The Director General of the Foreign Service has not responded, formally or
                 informally to the report and subsequent follow-up inquiries.
       To be resolved by:    May 2002


       Overseas Telephone Systems Security Management (SIO/A-00-01), November 1999
       Summary: OIG made 19 recommendations to find solutions to overseas telephone security risks; 5 of
                these remain unresolved and were assigned to DS.
       Reason unresolved: OIG is working with DS and with the Chief Information Officer to reach resolution
                 on all of the recommendations.
       To be resolved by:    June 2002

       North/South Center (ARR-94-03), March 1994
       Summary: OIG recommended that USIA seek reimbursement of $1,507,261 in questioned costs,
                approximately $1 million of which resulted from an inequitable allocation of indirect costs to
                the Center. The Department of Health and Human Services, which has audit cognizance,
                established new indirect cost rates.
       Reason unresolved: The Department deferred action on about $480,000 in remaining questioned
                 costs pending further consultation with the Bureau of Educational and Cultural Affairs and
                 awaiting additional information from the bureau.
       To be resolved by:    September 2002


       International Institute of Wisconsin (CG-96-01), September 1996
       Summary: OIG made recommendations on questioned grant costs totaling $46,636 and internal
                controls and noncompliance issues.
       Reason Unresolved: The Department is seeking clarification and documentation from the grantee.
       To be resolved by:    December 2001


       Review of Indirect Costs Rates Proposed by the Institute of International Education (CG-99-
                  015), May 1999
       Summary: OIG made recommendations on questioned costs totaling $1,054.098 that resulted from an
                inequitable allocation in indirect costs.
       Reason Unresolved: The Department deferred a decision on the questioned costs pending comple-
                 tion of the appeal process.
       To be resolved by: Unknown, Under appeal.




78 .         Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                        SUMMARY OF AUDIT REPORTS
    WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS



Sale and Leaseback Arrangement Proposed by the Institute of International Education
           (CG-99-016), May 1999
Summary: OIG made recommendations on the sale and leaseback arrangement proposed by the
         grantee that did not constitute a sale and leaseback within the meaning of the OMB cost
         principles and projected Funds Put to Better Use of $4,300,000 over the life of the lease.
Reason Unresolved: The Department deferred a decision pending completion of the appeal process.
To be resolved by: Unknown; under appeal.


Washington Workshops Foundation (CG-99-025), September 1999
Summary: OIG made recommendations on questioned costs totaling $913,000 and internal controls
         and compliance issues.
Reasons Unresolved: The Department is seeking clarification from the grantee.
To be resolved by:    September 2002


Town Affiliation Association of the U.S. (00-CG-019), July 2000
Summary: OIG made recommendations on questioned costs totaling about $908.812 and internal
         controls and compliance issues.
Reason Unresolved: The Department is reviewing additional documentation provided by the grantee.
To be resolved by:    September 2002


The American Councils for International Education (00-CG-032), September 2000
Summary: OIG made recommendations on questioned costs totaling $1,186,847 and compliance
         issues.
Reason Unresolved: The Department is seeking clarification and additional documentation from the
          grantee.
To be resolved:    September 2002




      Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   79 .
80 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
82 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
        BROADCASTING BOARD OF GOVERNORS


Survey of the Broadcasting Board of
Governors’ Middle East Broadcasting
Activities and Initiatives (IBO-A-02-02)

The ranking minority member of the Senate Foreign Relations Committee asked
OIG to review the BBG’s broadcast activities in the Middle East. He also asked
OIG to evaluate the BBG’s plans for a new initiative to broadcast to the Middle East
by radio, the Middle East Radio Network (MERN). MERN is designed to provide
an alternative to the media in the region and is intended to be a credible source of
news and information about both the countries in the region and the United States.

    OIG’s principal finding is that MERN is an innovative and timely initiative that
can advance U.S. foreign policy interests in the Middle East. The structure and
format of MERN will differ from previous Voice of America (VOA) programming
and represents a new model for international broadcasting, a hybrid of traditional
VOA programming about America and local broadcast streams. MERN, however, is
only partially operational at this time and should be considered a pilot project that
can and will evolve over time.

    In addressing the requestor’s specific concerns, OIG found that:
 • U.S. positions cannot be presented better through existing media outlets
   already operating in the Middle East, which are generally hostile to U.S. policy
   or are operated by local governments and represent their views.
 • BBG is capable of making the vision of MERN a reality; provided, ways are
   found to reconcile the tension inherent in the applicable statutes between the
   BBG’s “professional independence and integrity” (22 U.S.C. 6204 (d)) and its
   obligation to broadcast in a manner “consistent with the broad foreign policy
   objectives of the United States” (22 U.S.C. 6202 (a)(1)).
 • As both a surrogate broadcaster (i.e., one that broadcasts about the countries
   in the region) and one that broadcasts about America, MERN can function
   within VOA’s organizational framework. Moreover, VOA, which is mandated
   to broadcast about America, already broadcasts some surrogate programming
   of its own in Africa.


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   83 .
        • MERN can remain consistent with U.S. interests if its personnel are resident
          nationals of Middle East and other Muslim countries; provided, the requisite
          editorial controls are in place. Those controls, according to BBG, will include
          editing of news stories by a bilingual American broadcaster so that items likely
          to spark controversy are caught before transmission.
        • Appropriate editorial control can be implemented from Washington, so long as
          there is a pre-broadcast review by an American.

       BBG has responded to and supported U.S. foreign policy interests in the Middle
       East. Even though BBG concedes that its past efforts to reach Middle East audi-
       ences have been largely unsuccessful, it is this recognition that led BBG to conceive
       of MERN prior to the September 11, 2001, terrorist attacks on the United States.

          Based on the report’s findings, OIG made three recommendations. First, the
       Department should develop and implement a plan to develop the internal language
       proficiency needed credibly to articulate American policies and viewpoints in Middle
       Eastern media outlets. Second, BBG should design and implement a program, in
       coordination with the Department, to place public diplomacy advisors with MERN.
       Third, BBG should design and implement a plan to introduce as much news pro-
       gramming in MERN broadcasts as is possible as quickly as possible.

           This report was a survey, and not exhaustive, due to the time constraints of the
       request. However, OIG will follow-up, once MERN has been operational for a year,
       with a more thorough review.




       Review of the Broadcasting Board of
       Governors’ Broadcast Affiliates Program
       (IBO-A-02-01)

       OIG reviewed the broadcast affiliates program of the BBG. Generally, an “affiliate”
       is a station or network of stations to which BBG transmits programs for re-broad-
       cast to local audiences/viewers. Affiliates broadcast in real time or rebroadcast via
       television as well as by FM and AM radio, or through live streaming audio or video
       on the Internet. The primary strategic goal of U.S. international broadcasting is “to
       promote the free flow of information around the world.” In support of this goal,
       U.S. broadcasting aims to reach audiences in the languages, media, and program
       formats that are most appropriate. Increasingly, BBG is accomplishing this through
       the use of affiliate radio and television stations overseas, with over 1,900 active



84 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
affiliates. The objectives of the review were to determine whether the affiliates
program is adequately planned and effectively implemented and whether monitoring
and controls are in place and effective.

     OIG found that the Office of Affiliate Relations was relying on miscellaneous
BBG planning documents and other engineering studies for guidance, which pro-
vide only a general framework for affiliate planning. As BBG places more emphasis
on the quality of the affiliates it acquires, the affiliates office needs to develop a
comprehensive strategic plan. After such a plan has been completed and approved,
the BBG performance reporting requirements under the Government Performance
and Results Act, Public Law 103-62, should be revised accordingly. The affiliates
office also needs to ensure that improvements are made in its electronic database of
affiliate broadcasters so that the system can be an effective management tool to
support the affiliates mission. While the affiliates office has achieved much success
in expanding audiences, it is hampered in carrying out its mission by a lack of
resources. With a Memorandum of Understanding now in place between BBG and
the Department, there is a greater opportunity for public affairs sections to work in
support of BBG affiliates overseas. Finally, OIG found that the affiliates office
needs to improve its monitoring of affiliate broadcasts and administrative controls
over affiliate equipment and agreements.

    Major report recommendations called on BBG to implement a strategic plan,
including database improvement; to provide the Office of Affiliate Relations with
the resources necessary to accomplish its mission; to communicate to Department
public affairs sections the program’s priorities and support requirements; and to
distribute effectively equipment and update affiliate agreements.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   85 .
86 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
              APPENDIX 1: INVESTIGATIVE ACTIVITIES

                             Workload

                             Cases pending 3/31/01                                     1
                             New cases opened                                          0
                             Cases closed                                              0
                             Cases pending 9/30/01                                     1


                             Total Judicial Actions                                    0

                             Prosecutive Referral                                      0
                             Prosecutive Declination                                   0

                             Total Administrative Actions                              0




                The statistics and narrative case descriptions of investigative activities appearing in
                this Semiannual Report to the Congress are the result of reports received from
                prosecutive and administrative authorities. The final actions may be changed at a
                later date by individual use of administrative and judicial appeals processes.




                           APPENDIX 2: REPORTS ISSUED

IBO-A-02-01       Review of the Broadcasting Board of Governors’ Broadcast
                  Affiliates Program                                                                      11/01
IBO-A-02-02       Review of the Broadcasting Board of Governors’ Middle East
                  Broadcasting Activities and Initiatives (MERN)                                           3/02




    Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002             87 .
APPENDIX 3: SAVINGS & MORE EFFECTIVE USE OF RESOURCES

                                               Table I
                               INSPECTOR GENERAL ISSUED AUDIT REPORTS
                                       WITH QUESTIONED COSTS
                                                          Number              (Dollars in Thousands)
                                                         of Reports   Questioned Costs Unsupported Costs

   A.   For which no management decision has been made
        by the commencement of the reporting period            0                   0                0

   B.   Which were issued during the reporting period          0                   0                0

        Subtotals (A + B)                                      0                   0                0

   C.   For which a management decision was made
        during the reporting period, based on formal           0                   0                0
        administrative or judicial appeal
        (i) dollar value of disallowed costs                   0                   0                0
        (ii) dollar value of costs not disallowed              0                   0                0


   D.   For which no management decision has been
        made by the end of the reporting period                0                   0                0

        Reports for which no management decision
        was made within 6 months of issuance                   0                   0                0




                                          Table II
                           INSPECTOR GENERAL ISSUED AUDIT REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                                       Number            Dollar Value
                                                                      of Reports       (in thousands)

   A.   For which no management decision has been made
        by the commencement of the reporting period                       0                    0
   B.   Which were issued during the reporting period                     0                    0

        Subtotals (A + B)                                                 0                    0

   C.   For which a management decision was made
        during the reporting period                                       0                    0

        (i) dollar value of recommendations that were
            agreed to by management                                       0                    0
            – based on proposed management action
            – based on proposed legislative action

        (ii) dollar value of recommendations that were
             not agreed to by management                                  0                    0

   D.   For which no management decision has been
        made by the end of the reporting period                           0                    0

        Reports for which no management decision
        was made within 6 months of issuance                              0                    0



88 .        Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                          SUMMARY OF AUDIT REPORTS
     WITHOUT MANAGEMENT DECISION FOR MORE THAN SIX MONTHS

International Broadcasting Oversight

BBG Transition to Independence (01-FP-M-018), March 2001
Summary: OIG made seven recommendations to the Broadcasting Board of Governors
         (BBG) and the Department of State to finalize a series of memoranda
         concerning operating agreements, follow through with establishing a financial
         service center at BBG, determine the level of BBG support to the Depart-
         ment for interactives and other diplomacy programming on a non-reimburs-
         able basis, and resolve differences concerning U.S. chief of mission author-
         ity over Voice of America correspondent travel overseas. One recommenda-
         tion to the Department’s Office of the Undersecretary for Public Diplomacy
         and Public Affairs remains unresolved. It calls for the development of a
         programming needs assessment to support requests for BBG transmission
         services.
Reason Unresolved: The Department’s Office of the Undersecretary for Public Diplo-
          macy and Public Affairs has not responded, formally or informally, to the
          report and subsequent follow-up inquiries. An ongoing OIG inspection of the
          Department’s Bureau of Public Affairs indicates that funding has now been
          approved to conduct the programming needs assessment and the study can
          move forward.
To be resolved by: June 2002

BBG Audience Research Program (01-FP-R-042), May 2001
Summary: OIG made seven recommendations to BBG to establish procedures to
         ensure that Board language priorities are considered in allocating audience
         research funds, ensure the broadcast entities document the use of research
         recommendations in making broadcast and programming decisions, require
         the broadcast entities to work with the IBB Strategic Planning Office to
         improve the agency’s GPRA planning and reporting process, and ensure
         that the audience research contracting practices of Radio Free Europe/
         Radio Liberty (RFE/RL) and Radio Free Asia adhere to OMB guidance. One
         recommendation remains unresolved dealing with the broadcast entities
         need to document their use of audience research in making decisions on
         programs.
Reason Unresolved: The BBG management decision of August 15, 2001, concerning
          this recommendation indicates that it may have misunderstood the intent of
          the recommendation. BBG commented that to comply with the recommen-
          dation would require the establishment of a new GPRA “measurement
          bureaucracy.” In our December 2001 response to BBG, we disagreed and
          pointed out that the recommendation does not relate to GPRA requirements.
          In general, we noted that the recommendation addresses the requirement in
          the BBG audience research charter that “broadcast management demon-
          strate systematic use of audience research.” In addition, we pointed out that
          RFE/RL already had made strides in implementing a process that, if fully
          implemented, should satisfy our recommendation and could be used as a
          model for the other broadcast entities. As of the end of March 2002, BBG
          had not answered the OIG December 2001 response.
To be resolved by: June 2002


Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   89 .
90 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                       LIST OF ABBREVIATIONS

                      BBG        Broadcasting Board of Governors
                    C-LAN        Classified local area network
                        CA       Bureau of Consular Affairs
                      CCP        Classified Connectivity Program
                      CFO        Chief financial officer
                       CRS       Catholic Relief Services
                      CWS        Church World Services, Inc.
                      DTC        Defense Trade Controls
                        DS       Bureau of Diplomatic Security
                        EU       European Union
                    FACTS        Federal Agencies’ Centralized Trial-Balance
                                 System
                      FAO        Food and Agriculture Organization
                  FODAG          UN Agencies for Food and Agriculture
                        FSI      Foreign Service Institute
                      FSN        Foreign Service national
                   GMRA          Government Management Reform Act
                        HR       Bureau of Human Resources
                  HR/CSP         Office of Civil Service Personnel, HR
                  HR/EX          Executive Office, HR
                    IBWC         International Boundary and Water Commission
                      INR        Bureau of Intelligence and Research
                     IPTF        International Police Task Force
                       IRC       International Rescue Committee
                      IRM        Bureau of Information Resource Management
                         IT      Information technology
                    LCDI         Leadership Competencies Development
                                 Initiative
                      LMS        School of Leadership and Management
                      OBO        Office of Overseas Buildings Operations




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   91 .
                      MPP                Mission performance plan
                     NATO                North Atlantic Treaty Organization
                       NP                Bureau of Nonproliferation
                      OIG                Office of Inspector General
                      PRM                Bureau of Population, Refugees, and Migration
           RM/F/DFS/FO/PD                Payments Division, Bureau of Resources
                                         Management
                             RSO         Regional security officer
                             SAR         Semiannual report
                              SCI        Sensitive compartmented information
                           STATS         State Transportation and Tracking System
                              UN         United Nations
                           USAID         United States Agency for International
                                         Development
                             USBP        United States Border Patrol
                             USIS        United States Information Service
                             VOA         Voice of America
                              WFP        World Food Program




92 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
                        INDEX OF REPORTING REQUIREMENTS
               INSPECTOR GENERAL ACT OF 1978, AS AMENDED



REQUIREMENT         SUBJECT                                                           PAGE NUMBERS

Section 4(a)(2)     Review of legislation and regulations                                         15-18
Section 5(a)(1)     Significant problems, abuses, and deficiencies                        19-64, 83-85
Section 5(a)(2)     Significant recommendations for corrective action                     19-64, 83-85
Section 5(a)(3)     Prior significant recommendations unimplemented                                    77
Section 5(a)(4)     Matters referred to prosecutive authorities                                   65-69
Section 5(a)(5)     Information or assistance refused                                              None
Section 5(a)(6)     List of reports issued                                                    73-74, 87
Section 5(a)(7)     Summaries of significant reports                                      19-64, 83-85
Section 5(a)(8)     Audit reports–questioned costs                                                75, 88
Section 5(a)(9)     Audit reports–funds to be put to better use                                  76, 88
Section 5(a)(10)    Prior audit reports unresolved                                            78-79, 89
Section 5(a)(11)    Significant revised management decisions                                       None
Section 5(a)(12)    Significant management decisions with which OIG disagreed                      None




   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002        93 .
                            Summary of OIG Accomplishments
                  Financial Results:

                  Questioned costs
                     Issued during the reporting period                        $ 4,071,663
                     Management decision during the reporting period           $ 1,100,000
                  Recommendations for funds to be put to better use
                     Issued during the reporting period                       $            0
                     Management decision during the reporting period          $            0
                  Investigative recoveries                                     $ 17,626,700

                  Investigative Results:

                  Cases opened                                                           16
                  Cases closed                                                           46
                  Judicial actions                                                       31
                  Administrative actions                                                  9
                  Hotline and complaint activity                                        166

                  Reports Issued:                                                        53




                           Pictured on Front Cover: Embassy Minsk,
                              Belarus. See page 33 for synopsis of
                                    OIG report ISP-I-02-27.




                                Requests for additional copies of this
                              publication should be addressed to:

                                       Office of Inspector General
                                       U.S. Department of State
                                       OIG/PPM/RR, Room 810
                                       1700 North Moore Street
                                       Arlington, VA 22209


                                   Department of State Publication 10911
                                        Office of Inspector General
94 .   Office of Inspector General Semiannual Report to May
                                            Released    the Congress,
                                                             2002     October 1, 2001, to March 31, 2002
                              TABLE OF CONTENTS

A MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONGRESSIONAL ACTIVITIES, OUTREACH, AND GPRA . . . . . . . . . . . . . . . . . . . . . 15

DEPARTMENT OF STATE
  SECURITY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
  INFORMATION TECHNOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59
  INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
  APPENDIX 3: Savings and More Effective Use of Resources
      Table 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75
      Table 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 76
  Appendix 4: Resolution of Reports & Recommendations
      Previously Reported Significant Audit Recommendations . . . . . . . . . . . . . 77
      Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . . 78

BROADCASTING BOARD OF GOVERNORS
  AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   83
  APPENDIX 1: Investigative Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   87
  APPENDIX 2: Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 87
  APPENDIX 3: Savings and More Effective Use of Resources
     TABLE 1: Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     88
     TABLE 2: Funds Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        88
  Appendix 4: Resolution of Reports & Recommendations
     Audit Reports Pending Management Decision . . . . . . . . . . . . . . . . . . . . . .                                   89

LIST OF ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
INDEX OF REPORTING REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 93




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002                                 95 .
96 .   Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002
           FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                   of Federal programs and resources
                            hurts everyone.

                         Call the Office of Inspector General
                                       HOTLINE
                                      202/647-3320
                                  or 1-800-409-9926
                           or e-mail oighotline@state.gov
                         to report illegal or wasteful activities.

                                 You may also write to
                              Office of Inspector General
                               U.S. Department of State
                                 Post Office Box 9778
                                 Arlington, VA 22219

                        Please visit our website at oig.state.gov

                           Cables to the Inspector General
                          should be slugged “OIG Channel”
                               to ensure confidentiality.




Office of Inspector General Semiannual Report to the Congress, October 1, 2001, to March 31, 2002   97 .
